No.
In the

Supreme Court of the United States
ESIP SERIES 2, LLC,

Petitioner,

v.
PUZHEN LIFE USA, LLC,

Respondent.

-----------------------------------------ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

------------------------------------------

APPENDIX TO CORRECTED
PETITION FOR WRIT OF CERTIORARI
------------------------------------------

Gordon K. Hill
Counsel of Record
Alma J. Pate
PATE BAIRD
36 West Fireclay Avenue
Salt Lake City, UT 84107
(801) 284-7000
ghill@patebaird.com
Counsel for Petitioner
GibsonMoore Appellate Services, LLC
206 East Cary Street ♦ Richmond, VA 23219
804-249-7770 ♦ www.gibsonmoore.net

ia
TABLE OF CONTENTS
Appendix to Petition
Page:
Opinion
U.S. Court of Appeals for the Federal Circuit
ESIP Series 2, LLC v. Puzhen Life USA, LLC
(No.2019-1659)
entered May 19, 2020 ........................................ 1a
Patent Board Decision and Order
entered February 27, 2019 .............................. 15a
Order Denying Petition for Panel
Rehearing and Rehearing en Banc
U.S. Court of Appeals for the Federal Circuit
ESIP Series 2, LLC v. Puzhen Life USA, LLC
(No.2019-1659)
entered July 13, 2020 ...................................... 81a
Relevant Constitutional and
Statutory Provisions:
U.S. Const. amend. V ...................................... 83a
Title 5 USC ...................................................... 83a
Title 35 USC .................................................... 84a

1a

[ENTERED: May 19, 2020]
United States Court of Appeals
for the Federal Circuit
_____________________________

ESIP SERIES 2, LLC,
Appellant
v.
PUZHEN LIFE USA, LLC,
Appellee
_____________________________

2019-1659

_____________________________

Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017-02197.
_____________________________

Decided: May 19, 2020
_____________________________

GORDON K. HILL, Pate Baird, Salt Lake City, UT,
argued for appellant. Also argued by
ALMA JOHN PATE.
MARK A. MILLER, Dorsey & Whitney LLP, Salt
Lake City, UT, argued for appellee. Also represented
by ELLIOT HALES; GREGORY STUART SMITH,
Law Offices of Gregory S. Smith, Washington, DC.
_____________________________

Before LOURIE, REYNA, and HUGHES, Circuit
Judges.
REYNA, Circuit Judge.

2a

ESIP Series 2, LLC, appeals a decision of the
Patent Trial and Appeal Board that certain claims of
ESIP’s patent are invalid as obvious. ESIP also
contends that the Board should not have instituted
inter partes review because appellee Puzhen failed
to identify “all real parties in interest” as required by
35 U.S.C. § 312. We find no error in the Board’s
obviousness determination, and the Board’s decision
to institute inter partes review is final and nonappealable. We affirm.
BACKGROUND
A. The ’130 Patent
ESIP Series 2, LLC, (“ESIP”) owns U.S. Patent
No. 9,415,130 (“the ’130 patent”), which relates to “a
novel system and method for combining germicidal
protection and aromatic diffusion in enclosed
habitable spaces.” ’130 patent at 1:7–10. Products of
this type are commonly known as “vaporizers” or
“diffusers.” Figure 2 of the ’130 patent, shown below,
depicts an embodiment of the claimed invention with
a diffusion module (45) contained within a housing
(12).

3a

The ’130 patent states that it overcomes “a
number of problems” in the prior art that stem from
the diffusion of “[o]verly large particles.” ’130 patent
at 4:15–28. It teaches that overly large particles cause
waste and reduce effectiveness: “rather than
remaining in the air until they have evaporated or
been incorporated into the atmosphere, they may
instead settle out relatively quickly, onto surfaces,
furniture, floors, into HVAC systems, or the like.” Id.
To avoid these problems, the claimed invention
recites “a micro-cyclone for quiet, well diffused flow
of ultra-fine droplets.” ’130 patent at 4:15–28. Figure
12, shown below, depicts components of the diffusion
module (45), including: a “reservoir” (52), an
“atomizer” (46), and a “micro-cyclone” (90). The
micro-cyclone contains a “spiral channel” (91) that
“begins below a central plane . . . defined by a plate”
(96). Id. at 16:57–17:4. The micro-cyclone causes “the
comparatively larger particles in the stream of air . . .
to smash and coalesce against the inside of the outer

4a

wall of the [spiral] channel,” leaving only “the
comparatively smallest range of droplets [to be]
passed out to the nozzle.” Id. at 17:26–31. After
coalescing, the larger droplets “drip back into the
atomizer . . . to be re-atomized.” Id.

Claim 1, reproduced
claimed invention:

below,

illustrates

the

1. A method for introducing a scent into
breath- able air, the method comprising;
providing a system comprising a reservoir,
eductor,
and
separator
operably
connected to one another;
providing a liquid constituting an aromatic
substance selected by an operator for
the scent to be introduced into the
breathable air;
drawing a first portion of the liquid from
the reservoir by the eductor passing a
flow of air;
entraining the first portion of the liquid
into the flow;

5a

forming droplets of the first portion by at
least one of restricting an area through
which the flow passes and the
entraining;
separating out a second distribution of
the droplets by passing the flow
through a wall between a first chamber
and a second chamber, the flow path
spiraling axially and circumferentially,
simultaneously
and
continuously,
through an arcuate channel formed
through the wall; and passing a first
distribution of the droplets out of the
separator into the breathable air.
’130 patent at 23:22–41 (emphases added).
B. IPR Proceeding
Puzhen Life USA, LLC, (“Puzhen”) filed a
petition for inter partes review of claims 1, 3, and 17
of the ’130 patent. Puzhen challenged the claims as
obvious (i) in view of Sevy 1 and Cronenberg 2; and (ii)
in view of Sevy and Giroux 3.
Sevy relates to “novel systems and methods for
inte- grating air supplies, reservoirs and atomizers
into an inte- grated system.” Sevy at 1:6–8. Sevy
relies on “direction change and momentum of impact
to further comminute [] droplets into a more finely
atomized mist.” Id. at 2:13–19. Sevy teaches that
larger droplets are separated from the mist because
they “cannot move with the airflow, typically
U.S. Patent No. 7,878,418 (“Sevy”).
U.S. Patent No. 4,243,396 (“Cronenberg”).
3 U.S. Patent No. 8,001,963 (“Giroux”).
1
2

6a

because . . . they will not be able to quickly turn to
follow the flow of air.” Id. at 8:64–9:4.
Cronenberg relates to “[a] separator adapted for
use as part of a fluid dispenser system for supplying
inhalable flu- ids.” Cronenberg at Abstract.
Cronenberg teaches that the “separator is adapted to
be positioned within the fluid dis- penser system so
that the mixture of liquid and gas passes along [a]
tortuous passageway,” causing “the larger drop- lets
of liquid [to be] removed from the mixture.” Id. at
2:48–55. In this way, the separator “achieve[s] the
desired vapor and avoid[s] the presence of liquid
droplets in the gas and liquid mixture.” Id. at 1:20–
22.
Giroux relates to “a novel integrated nebulizer and
particle dispersion chamber” that “provides for
delivery of a vortical flow of nebulized particles to
the nostrils.” Giroux at Abstract. To achieve the size
and velocity characteristics that are important for
effective drug delivery, Giroux teaches forcing the
particles to flow through a “baffle” that is in a
“generally serpentine or helix shape,” which
“create[s] motion of the nebulized particles in a
vortex as they exit the dispersion chamber.” Id. at
13:32–42.
Based on the prior art and expert testimony, the
Board determined that the challenged claims would
have been obvious in view of Sevy and Cronenberg
and in view of Sevy and Giroux. J.A. 40, 47. The
Board found that Sevy discloses every element of the
challenged claims except for the “arcuate channel”
limitation of the “separating” claim element. J.A. 23–
31. The Board found that both Cronenberg and

7a

Giroux disclose the “arcuate channel” limitation. The
Board explained:
[N]either reference, considered by itself,
teaches forming an arcuate channel through a
wall for the purpose of separating liquid
droplets out of a mixed air-droplet flow. Sevy’s
separator passes flow through a wall, but not
using an arcuate passage- way. Cronenberg
[and Giroux] teach[] accomplishing the same
type of separation using an arcuate
passageway, but not one passing through a
wall.
J.A. 27, 43. The Board determined that a skilled
artisan would have been motivated to combine the
teachings of each reference with Sevy to arrive at the
claimed invention.
The Board also addressed in its final written
decision ESIP’s argument that Puzhen’s petition was
barred from institution because Puzhen failed to
identify “all real par- ties in interest” as required by
35 U.S.C. § 312(a)(2). J.A. 849. According to ESIP,
Puzhen’s petition failed to identify two real parties
in interest: doTERRA International, LLC, and
Puzhen Life Co., Ltd. J.A. 5. After considering
ESIP’s asserted evidence, the Board determined that
neither party was a real party in interest within the
meaning of 35 U.S.C. § 312(a)(2) and that Puzhen’s
petition was not barred from institution. J.A. 11, 14.
ANALYSIS
Obviousness is a question of law with underlying
factual findings relating to the scope and content of
the prior art; differences between the prior art and
the claims at issue; the level of ordinary skill in the

8a

pertinent art; the presence or absence of a
motivation to combine or modify prior art with a
reasonable expectation of success; and any objective
indicia of non-obviousness. Persion Pharms. LLC
Alvogen Malta Operations Ltd., 945 F.3d 1184, 1189
(Fed. Cir. 2019). We review factual determinations
for substantial evidence. Id. Substantial evidence is
“such relevant evidence as a reasonable mind might
accept as adequate to support a conclusion.” Consol.
Edison Co. v. NLRB, 305 U.S. 197, 229 (1938). We
review the Board’s legal conclusions de novo.
Velander v. Garner, 348 F.3d 1359, 1371 (Fed. Cir.
2003).
A. Obviousness
ESIP challenges four fact findings underlying the
Board’s conclusion that the ’130 patent claims would
have been obvious. We determine that all four fact
findings are supported by substantial evidence, and
we affirm the Board’s conclusion.
First, with respect to the “separating” claim
limitation, ESIP challenges the Board’s finding that
Sevy teaches separating droplets by passing the flow
through an orifice in a wall. Appellant Br. 27–28.
ESIP argues that Sevy’s orifice—aperture 99, shown
in Figure 7 below—“does not function as a separator”
because it “cannot discriminate with regard to the
size of a particle passing through it. It’s a hole.” Id.
at 28. We disagree. In support of its finding, the
Board relied on Sevy’s disclosure that “separator
plate 98 passes the flow of air from the atomizer 16
through apertures 99” and that droplets with “too
large a size and mass will not be able to quickly turn
to follow the flow of air, and will strike the walls of
the opening 100 or the separator plate 98.” J.A. 26

9a

(citing Sevy at 8:64–9:2). The Board also relied on
the testimony of Puzhen’s expert, Mr. Smith, who
testified that the separator plate (98) in Sevy
“segregate[s]” atomizer droplets. Id. (citing J.A.
634–635).
We find no error in the Board’s decision to credit
the opinion of one expert over another, and we do not
reweigh evidence on appeal. Impax Labs. Inc. v.
Lannett Holdings Inc., 893 F.3d 1372, 1382 (Fed. Cir.

2018). Substantial evidence supports the Board’s
finding that Sevy teaches separating droplets by
passing the flow through an orifice in a wall.
Second, also with respect to the “separating” claim
limitation, ESIP challenges the Board’s finding that
Giroux discloses a “vortex” that separates large
droplets from the air flow. ESIP argues that the

10a

circulation of particles through Giroux’s “vortex”
“does not result in the larger droplets being
separated from the vortex or separated from the air
flow.” Appellant Br. at 35. For support, ESIP cites
only the testimony of its expert, Dr. Bell, which the
Board found to be “conclusory and unsupported” and
thus “un- helpful and unpersuasive.” J.A. 29. In
support of its finding that Giroux’s vortex separates
large droplets from the airflow, the Board relied on
the expert testimony of Mr. Smith and Giroux’s
teaching that the swirl of droplets in Giroux’s
“vortex” “sends the larger droplets to the outside
rings and . . . keeps the smaller [] droplets in the air
stream for a longer period of time.” J.A. 43 (quoting
Giroux at 8:60–62, 12:33-37; J.A. 643–644).
Substantial evidence therefore supports the Board’s
finding that Giroux teaches a vortex that separates
larger droplets from the air flow. See Impax, 893
F.3d at 1382.
Third, ESIP challenges the Board’s finding that a
skilled artisan would have been motivated to replace
the aperture in Sevy with the arcuate passageway of
Cronenberg. The Board found that Sevy and
Cronenberg teach two alternative methods for
achieving the separation of droplets from the mixed
dropletair flow, and that a skilled artisan would have
been motivated to substitute one method for the
other. J.A. 26–27. ESIP argues that Sevy and
Cronenberg “achieve different results” and that
combination of these two references would require
“substantial reconstruction.” Appellant Br. 28–29.
Again, ESIP relies solely on the discredited
testimony of Dr. Bell. In reaching its finding, the
Board relied on the disclosures of Sevy and
Cronenberg, and the expert testimony of Mr. Smith,

11a

who testified that a skilled artisan “would [have]
replace[d] [Sevy’s] aperture(s) in plate 98 with the
helical pathway of Cronenberg.” J.A. 26 (citing Sevy
at 8:64–9:2; Cronenberg at 3:12–21, 5:37–43; J.A.
634–635). Substantial evidence therefore supports
the Board’s finding that a skilled artisan would be
motivated to combine Sevy and Cronenberg. See
Impax, 893 F.3d at 1382.
Fourth, ESIP challenges the Board’s finding that
a skilled artisan would have been motivated to
combine Sevy with Giroux. Appellant Br. 36. ESIP
asserts that the Board “failed to articulate the
required explication as to why Giroux’s helical baffle
would be ‘formed through a wall’ as required by the
subject claims.” Id. We disagree. The Board found
that “both Sevy and Giroux teach methods for
removing large droplets from [the] mixture of air and
liquid droplets,” and thus a skilled artisan would
have been motivated to “substitute a channel defined
by a helical baffle, as taught by Giroux, for the
straight orifice in Sevy’s plate.” J.A. 44–45. In
reaching that determination, the Board relied on the
disclosures of Sevy and Giroux, and the expert
testimony of Mr. Smith, who testified that a skilled
artisan “would have had a reason to com- bine the
teachings of Sevy with those of Giroux.” Id. (citing
Sevy at 8:64–9:2; Giroux at 8:60–62, 12:33–37; J.A.
643–644). Substantial evidence therefore supports
the Board’s finding that a skilled artisan would be
motivated to com- bine Sevy and Giroux. See Impax,
893 F.3d at 1382.
ESIP also argues that the Board committed
numerous legal errors when rendering its
obviousness determination. For example, ESIP
claims that the Board legally erred by failing to

12a

expressly define the applicable level of ordinary skill
in the art. Appellant Br. 19–20. Yet ESIP fails to
make the requisite showing that there are “any
meaningful differences” between the parties
proposed definitions or that “the outcome of [the]
case would have been different based on which
definition the Board used.” Genzyme Therapeutic
Prod. Ltd. P’ship v. Biomarin Pharm. Inc., 825 F.3d
1360, 1371–72 (Fed. Cir. 2016). Similarly, ESIP
challenges the Board’s construction of “wall,” yet
ESIP “fail[s] to clearly explain what result would
occur if this court adopted [the appellant’s] proposed
claim construction[].” Fresenius USA, Inc. v. Baxter
Int’l, Inc., 582 F.3d 1288, 1304 (Fed. Cir. 2009)
(holding that the appellant “gave this court little
guidance and cited no record support regarding why
a modified claim construction would affect the [judgment]. For that reason alone, we may decline to
consider
Fresenius’s
claim
construction
arguments.”).
We
find
ESIP’s
arguments
unpersuasive.
Because the Board’s obviousness conclusion is not
legally erroneous and the fact findings are supported
by substantial evidence, we affirm the determination
that claims 1, 3, and 17 would have been obvious in
view of Sevy and Cronenberg and in view of Sevy and
Giroux.
B. Real Party in Interest
Under 35 U.S.C. § 312(a), a petition “may be
considered only if” it includes: (1) payment of fees;
(2) identification of all real parties in interest; (3)
identification “with particularity” of each claim
challenged, the grounds of each challenge, and the
supporting evidence; (4) other information the

13a

Director requires by regulation; and (5) copies of
these documents for the patent owner. ESIP argues
that Puzhen failed to identify all “real parties in
interest” and thus the Board erred when it
considered institution of inter partes review. For the
reasons stated below, the Board’s § 312(a)(2) realparty-in-interest determination is final and nonappealable.
In Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131 (2016), the Supreme Court held that this Court
is precluded from reviewing Board decisions
concerning the “particularity” requirement under §
312(a)(3). The Court explained that § 314(d) bars
appellate review of “questions that are closely tied to
the application and interpretation of statutes related
to the Patent Office’s decision to initiate inter partes
review.” Id. at 2141–42. The Court further explained
that “where a patent holder grounds its claim in a
statute closely related to that decision to institute
inter partes review, § 314(d) bars judicial review.”
Id.
More recently, in Thryv, Inc v. Click-To-Call
Techs., LP, 140 S. Ct. 1367 (2020), the Supreme
Court held that § 314(d) also precludes judicial
review of the agency’s decision whether to apply the
one-year time bar set forth in § 315(b)). The Court
explained that “§ 315(b)’s time limitation is integral
to, indeed a condition on, institution,” and that “a
contention that a petition fails under § 315(b) is a
contention that the agency should have refused ‘to
institute an inter partes review.’” Id. at 1373–74
(quoting 35 U.S.C. § 314(d)). The Court concluded
that a challenge to a petition’s timeliness under §
315(b) raises “an ordinary dispute about the

14a

application of” an institution-related statute and is
barred from appellate review by § 314(d). Id.
In view of Cuozzo and Click-to-Call, we find no
principled reason why preclusion of judicial review
under § 314(d) would not extend to a Board decision
concerning the “real parties in interest” requirement
of § 312(a)(2). ESIP’s contention that the Board
failed to comply with § 312(a)(2) is “a contention
that the agency should have re- fused to institute an
inter partes review.” See Click-To-Call, 140 S. Ct. at
1373–74. Indeed, ESIP expressly argues that the
agency should have refused to institute inter partes
review because of Puzhen’s failure to identify all
“real parties in interest.” E.g., Appellant Br. at 5
(“[I]t was improper for the Board to ‘consider’ the
IPR Petition and institute an IPR.”). Accordingly, we
hold that ESIP’s challenge to the Board’s “real parties
in interest” determination “raises ‘an ordinary
dispute about the application of’ an institutionrelated statute,” and that § 314(d) precludes our
review of that determination. Click-To-Call, 140 S.
Ct. at 1373–74 (quoting Cuozzo, 136 S. Ct. at 2141–
42).
CONCLUSION
We have considered ESIP’s other arguments and
find them unpersuasive. We affirm the Board’s
determination that claims 1, 3, and 17 of the ’130
patent are invalid as obvious.
AFFIRMED

15a
[ENTERED: FEBRUARY 27, 2019]
UNITED STATES PATENT AND
TRADEMARK OFFICE
_________________________________________
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
_________________________________________
PUZHEN LIFE USA, LLC,
Petitioner,
v.
ESIP SERIES 2, LLC,
Patent Owner.
_________________________________________
Case IPR2017-02197
Patent 9,415,130 B2
_________________________________________
Before CHRISTOPHER L. CRUMBLEY, JON B.
TORNQUIST, and CHRISTOPHER M. KAISER,
Administrative Patent Judges.
KAISER, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318; 37 C.F.R. § 42.73
INTRODUCTION
A. Background
Puzhen Life USA, LLC (“Petitioner”) filed a
Petition (Paper 1, “Pet.”) requesting an inter partes
review of claims 1, 3, and 17 of U.S. Patent No.
9,415,130 B2 (Ex. 1001, “the ’130 patent”). ESIP

16a
1

Series 2, LLC (“Patent Owner”) filed a Preliminary
Response (Paper 5, “Prelim. Resp.”). On March 9,
2018, we instituted trial on all challenged claims and
all grounds asserted in the Petition. Paper 10 (“Inst.
Dec.”). During the trial, Patent Owner filed a
Response (Paper 15, “PO Resp.”), and Petitioner filed
a Reply (Paper 17). In addition, Patent Owner filed a
motion to exclude certain evidence and pleadings
(Paper 19), to which Petitioner filed an Opposition
(Paper 20) and Patent Owner filed a Reply (Paper
22). We held a hearing, the transcript of which has
been entered into the record. Paper 23 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6, and we
issue this Final Written Decision pursuant to 35
U.S.C. § 318(a) and 37 C.F.R. § 42.73. We conclude
that Petitioner has established by a preponderance
of the evidence that claims 1, 3, and 17 of the ’130
patent are unpatentable.
B. Related Matters
The parties note that the ’130 patent is at issue
in ESIP Series 1, LLC v. doTERRA Int’l, LLC, Case
No. 2:16-cv-01011 (D. Utah). Pet. 3; Paper 4, 2.

The Petition names Earl Sevy, the inventor of the ’130 patent,
as the Patent Owner. Pet. 1. Patent Owner made of record in
this proceeding an instrument purporting to assign “[t]he
entire right, title and interest in” all “Patents granted” on the
application that issued as the ’130 patent. Ex. 2004, 1. The
assignee named in that assignment is “ESIP, LLC, Series No.
2,” which Patent Owner consistently refers to as “ESIP Series
2, LLC.” Id.; Prelim. Resp. 1; PO Resp. 1. We assume, without
deciding, that Patent Owner’s nomenclature is correct.
1

17a
C. The Asserted Grounds of Unpatentability
Petitioner contends that claims 1, 3, and 17 of the
’130 patent are unpatentable based on the following
grounds (Pet. 17–60): 2
Statutory Basis
Ground
§ 103
§ 103
§ 103
§ 103

Sevy 3 and Cronenberg 4
Sevy and Giroux 5
Sevy and Kato 6
Sevy and Stroia 7

Challenged
Claims
1, 3, and 17
1, 3, and 17
1, 3, and 17
1, 3, and 17

D. The ’130 Patent
The ’130 patent, titled “Industrial, Germicidal,
Diffuser Apparatus and Method,” issued on August
16, 2016. Ex. 1001, at [45], [54]. The ’130 patent
relates to “[a] modular, integrated, combination air
purification and aroma diffuser” that makes use of “a
micro-cyclone for quiet, well diffused flow of ultrafine droplets.” Ex. 1001, at [57].
The diffusion of “[o]verly large particles” poses “a
number of problems,” including wasting the aromatic
product and causing the particles to settle out of the
air too quickly. Id. at 4:15–28. To avoid these
Petitioner also relies on a declaration from Fred P. Smith,
P.E., CSP. Ex. 1007.
3 Sevy, U.S. Patent No. 7,878,418 B2, issued Feb. 1, 2011 (Ex.
1003, “Sevy”).
4 Cronenberg, U.S. Patent No. 4,243,396, issued Jan. 6, 1981
(Ex. 1004, “Cronenberg”).
5 Giroux, U.S. Patent No. 8,001,963 B2, issued Aug. 23, 2011
(Ex. 1005, “Giroux”).
6 Kato et al., U.S. Patent No. 6,236,042 B1, issued May 22,
2001 (Ex. 1006, “Kato”).
7 Stroia et al., U.S. Patent No. 6,029,913, issued Feb. 29, 2000
(Ex. 1009, “Stroia”).
2

18a
problems, the ’130 patent describes using a “microcyclone” to separate “the comparatively larger
particles from the flow” of air containing atomized
droplets of the liquid product to be diffused. Id. at
4:3–14. This micro- cyclone “contains a spiral
channel” that “begins below a central plane” that is
“defined by a plate.” Id. at 16:65–17:4. The channel
spirals along a “circular route . . . from below the
plate” to above it. Id. at 17:18–20. In use, this
micro-cyclone causes “the comparatively larger
particles in the stream of air . . . to smash and
coalesce against the inside of the outer wall of the
channel,” leaving only “the comparatively smallest
range of droplets [to be] passed out to the nozzle.” Id.
at 17:26–31. After coalescing, the larger droplets
“drip back into the atomizer . . . to be re-atomized.”
Id. at 17:28– 29.
E. Illustrative Claim
Claims 1 and 17 of the ’130 patent are independent,
and claim 1 is illustrative; it recites:

1. A method for introducing a scent into
breathable air, the method comprising;

providing a system comprising a reservoir,
eductor, and separator operably connected to
one another;
providing a liquid constituting an aromatic
substance selected by an operator for the scent
to be introduced into the breathable air;
drawing a first portion of the liquid from the
reservoir by the eductor passing a flow of air;
entraining the first portion of the liquid into
the flow;

19a
forming droplets of the first portion by at least
one of restricting an area through which the
flow passes and the entraining;
separating out a second distribution of the
droplets by passing the flow through a wall
between a first chamber and a second
chamber, the flow path spiraling axially and
circumferentially,
simultaneously
and
continuously, through an arcuate channel
formed through the wall; and
passing a first distribution of the droplets out
of the separator into the breathable air.
Ex. 1001, 23:22–41.
ANALYSIS
A. Real Parties in Interest
A petition for inter partes review “may be
considered only if . . . the petition identifies all real
parties in interest.” 35 U.S.C. § 312(a)(2). Here, the
Petition identifies Petitioner and Puzhen, LLC as
real parties in interest (“RPIs”). Pet. 3. Patent
Owner argues that this identification is incomplete
and that both Puzhen Life Co., Ltd. (“Puzhen Life
HK”)
and
doTERRA
International,
LLC
(“doTERRA”) should have been identified as RPIs as
well. PO Resp. 1–6.
1. Legal Principles
Petitioner bears the overall burden to prove that
all real parties in interest have been identified.
Worlds Inc. v. Bungie, Inc., 903 F.3d 1237, 1242
(Fed. Cir. 2018) (applying this rule in the context of
35 U.S.C. § 315(b)). Thus, we evaluate the evidence
adduced at trial to determine whether Petitioner has

20a
borne its burden. In doing so, although there are
many ways in which a non-party can become a real
party in interest, we need only focus on the
arguments raised by Patent Owner. Id. (“an IPR
petitioner’s initial identification of the real parties in
interest should be accepted unless and until
disputed by a patent owner” by “produc[ing] some
evidence to support its argument that a particular
third party should be named a real party in
interest”); Wi-Fi One, LLC v. Broadcom Corp., 887
F.3d 1329, 1338 n.3 (Fed. Cir. 2018) (“the Board
properly focused on the factors [the patent owner]
raised in its argument”).
“[A]t a general level, the ‘real party-in-interest’ is
the party that desires review of the patent.” Office
Patent Trial Practice Guide, 77 Fed. Reg. 48,756,
48,759 (Aug. 14, 2012) (“Trial Practice Guide”).
“Whether a party who is not a named participant in a
given proceeding nonetheless constitutes a ‘real partyin-interest’ . . . to that proceeding is a highly factdependent question” with no “bright line test,” and is
assessed “on a case- by-case basis.” Trial Practice
Guide, 77 Fed. Reg. at 48,759 (citing Taylor v. Sturgell,
553 U.S. 880, 893–95 (2008)). “Determining whether a
non- party is a ‘real party in interest’ demands a
flexible approach that takes into account both
equitable and practical considerations, with an eye
toward determining whether the non-party is a clear
beneficiary that has a preexisting, established
relationship with the petitioner.” Applications in
Internet Time, LLC v. RPX Corp., 897 F.3d 1336, 1351
(Fed. Cir. 2018). Not just any relationship will be
sufficient. Instead, Congress intended the term “real
party in interest” to have its “common-law meaning,”
id., and, “when it comes to evaluating the relationship

21a
between a party bringing a suit and a non-party, the
common law seeks to ascertain who, from a ‘practical
and equitable’ standpoint, will benefit from the redress
that the chosen tribunal might provide.” Applications,
897 F.3d at 1349 (quoting Trial Practice Guide, 77 Fed.
Reg. at 48,759).
2. Application to Puzhen Life HK
Patent Owner argues that Puzhen Life HK should
have been named as “a real party-in-interest because
[it] is a parent company controlling [Petitioner] and
owning the substantive, U.S. intellectual property
rights.” PO Resp. 2. 8 The record developed at trial
establishes the following facts. Puzhen Life HK is a
Chinese company with two directors, Song BaoJie
and Li DongSheng. Ex. 2005, 2, 5, 9. Petitioner is a
New York limited liability company. Ex. 2006, 7.
From its founding on March 24, 2011, until 2013,
Petitioner’s sole member was Song BaoJie, one of the
directors of Puzhen Life HK. Ex. 2009, 15 (Response
to Interrogatory No. 10). Since then, Petitioner’s sole
member has been Li DongSheng. Id. A website exists
for Puzhen in general. Ex. 2008. That website was
registered by a third entity altogether, Puzhen Life
LLC. Ex. 2007. The contact information on the
Patent Owner’s only argument on the trial record is contained
in the Patent Owner Response. The Preliminary Response
forms no part of the record of the trial in this proceeding. Paper
11, 3 (“any arguments . . . not raised in the response will be
waived,” with no exclusion from this rule for arguments raised
in the preliminary response); see Cook Group Inc. v. Boston Sci.
Scimed, Inc., Case IPR2017-00135, slip op. at 49 (PTAB Nov.
15, 2018) (Paper 82) (“we generally do not allow Patent Owner
to carry over arguments from the Preliminary Response”). In
any case, the argument Patent Owner presented in the
Preliminary Response was identical to the argument it
presented during trial. Compare Paper 5, 3, with PO Resp. 2.
8

22a
website lists Petitioner and Puzhen Life HK as the
United States and Hong Kong offices, respectively, of
Puzhen generally. Ex. 2008, 2. A power of attorney for
Petitioner in this proceeding was signed by Bao Jie
Song, who is a director of Puzhen Life HK and who
identifies herself on the power of attorney as the chief
executive officer of Petitioner. Paper 8. Petitioner is
not the assignee of any United States patents or
trademarks, but Puzhen Life HK is. Ex. 2010; Ex.
2011. Finally, during an appeal to the Federal
Circuit, Petitioner filed a Certificate of Interest
identifying Puzhen Life HK among its “[p]arent
corporations and publicly held companies that own
10% or more of stock in the party.” Ex. 2022.
As Patent Owner argues, these facts at most
establish that Puzhen Life HK is a parent company
of Petitioner. Some of the individual facts, however,
are not consistent with a finding that Puzhen Life
HK is the parent company of Petitioner. For
example, Puzhen’s website appears to identify
Petitioner and Puzhen Life HK as sister companies
operating in different countries. Ex. 2008, 2. And the
sole owners—referred to as members in the context
of a limited liability company—of Petitioner are and
always have been individual people, not Puzhen Life
HK. Ex. 2009, 16. Nevertheless, given the other
established
facts,
particularly
Petitioner’s
identification of Puzhen Life HK as a parent
company of Petitioner in the Federal Circuit
Certificate of Interest, we find that the evidence as a
whole establishes that Puzhen Life HK is a parent
company of Petitioner. Ex. 2022.
Without more, we generally have not treated a
non-party who is the parent company of the
petitioner as a real party in interest who must be

23a
named under 35 U.S.C. § 312(a)(2). Par Pharm., Inc.
v. Jazz Pharms., Inc., Case IPR2015-00546, slip op.
at 13–19 (PTAB July 28, 2015) (Paper 25). We do not
interpret Applications as having changed this rule
such that all parent companies of petitioners for
inter partes reviews are per se RPIs. First, the
traditional rule is that mere status as a corporate
parent is insufficient to render an entity a real party
in interest (or even as falling within the broader
category of a privy), and Applications preserved the
common-law meaning of “real party in interest.” 897
F.3d at 1351; see IPR2017-02197 Taylor v. Sturgell,
553 U.S. 880, 893–95 (2008) (summarizing the
common- law rule as recognizing six types of
relationships that constitute privity, but not
including a parent-child corporate relationship
among them); Trial Practice Guide, 77 Fed. Reg. at
48,759 (even some parties qualifying as privies do
not need to be identified as real parties in interest).
Second, Applications did not involve a corporate
parent who was unnamed as an RPI. 897 F.3d at
1339 (describing the unnamed, alleged RPI as “one
of [the petitioner’s] clients”). Thus, we are not
persuaded that Puzhen Life HK’s status as the
parent company of Petitioner, by itself, is sufficient
to render Puzhen Life HK an RPI in this proceeding.
Something more is required.
Under Applications, relevant factors for
determining whether a non- party is an RPI include
the non-party’s relationship with the petitioner, the
non-party’s relationship to the petition, and the
nature of the entity filing the petition. 897 F.3d at
1351. Here, none of these factors suggests that
Puzhen Life HK is a “clear beneficiary” with a

24a
sufficient “preexisting, established relationship with
the petitioner.” Id.
As discussed above, the relationship between
Puzhen Life HK and Petitioner is that of parent and
subsidiary companies. Although it could be argued
that the parent company of the petitioner always
“has a preexisting, established relationship with the
petitioner” and is likely to benefit when and to the
degree that its subsidiary benefits, the preservation
of the common- law meaning of RPI in Applications
suggests that the mere establishment of parentcompany status is insufficient to render a non-party
an RPI. As the Federal Circuit has held in the
context of privity, “control of a party . . . through
stock ownership or corporate officership is not
enough to create privity, absent a showing that the
corporate form has been ignored.” Gillig v. Nike, Inc.,
602 F.3d 1354, 1362 (Fed. Cir. 2010). We see no
reason why this rationale does not apply equally to
the determination of whether a relationship is
sufficient to give rise to an RPI. As there is no
evidence before us that Petitioner and Puzhen Life
HK have ignored the corporate form, we do not
conclude
that
the
mere
parent-subsidiary
relationship alleged here is sufficient to make
Puzhen Life HK an RPI.
We have been directed to no evidence of record
relating to Puzhen Life HK’s relationship to the
present Petition. PO Resp. 2–5. Accordingly, there is
no evidence that Puzhen Life HK directed or assisted
in the preparation and filing of the Petition. 9 Absent
Patent Owner did not seek any additional discovery into the
question of what role, if any, Puzhen Life HK may have played
in preparing or filing the Petition.
9

25a
such evidence, we do not presume that Puzhen Life
HK’s status as a parent of Petitioner means that
Puzhen Life HK was involved in preparing or filing
the Petition.
Finally, we note that this is not a case in which,
even if it had been established that Puzhen Life HK
sought to use Petitioner as a proxy to file and litigate
what should be Puzhen Life HK’s Petition, Puzhen
Life HK has achieved any clear benefit it would not
have achieved by filing and litigating the Petition
itself. In some cases, the non-party is barred by 35
U.S.C. § 315(b) from filing a Petition for inter partes
review because it has waited too long after being
served with an infringement complaint, and the nonparty seeks to file a petition through a proxy. This is
not one of those cases. Puzhen Life HK has never
been accused of infringing the challenged patent, but
Petitioner has. Ex. 1030, 23 (identifying doTERRA,
Petitioner, and Puzhen, LLC as “Defendants”), 33–
34 (accusing only “Defendants” of infringing the ’130
patent). On this record, it does not appear that
Puzhen Life HK would have had anything to gain by
hiding behind Petitioner as a proxy.
Because the relationships Puzhen Life HK has to
Petitioner, to the Petition, and to this proceeding are
not sufficiently close, and because the benefits of this
proceeding to Puzhen Life HK are not sufficiently
great, we conclude that the record supports a
conclusion that Petitioner’s RPI identification is not
incomplete for failure to identify Puzhen Life HK.
3. Application to doTERRA
Patent Owner argues that doTERRA should have
been named as a real party in interest because it has
“agree[d] to be bound by the determination of issues

26a
in an action between others.” PO Resp. 5. Specifically,
Patent Owner argues that doTERRA and Petitioner
“are co-defendants in an underlying, related [piece of]
litigation,” in which doTERRA has “stipulated to the
same estoppel applicable to Petitioner [arising] from
this proceeding.” Id. at 6. Patent Owner also notes
that, at the time the present Petition was filed, only
doTERRA, not Petitioner, was accused of infringing
the ’130 patent. Id.
Patent Owner cites Taylor as supporting a
conclusion that doTERRA’s agreement to be bound
by the estoppel arising from the present proceeding
renders it a real party in interest. Id. at 5 (citing
Taylor, 128 S. Ct. at 2164). But the rule established
in Taylor is not that anyone who agrees to be bound
by the determination of issues in an action between
others is an RPI. Instead, the rule is that “[a] person
who agrees to be bound by the determination of
issues in an action between others is bound in
accordance with the terms of his agreement.” Taylor,
553 U.S. at 893 (quoting 1 Restatement (Second) of
Judgments § 40, p. 390 (1980)). Here, under the
agreement in question, doTERRA stated that it was
“willing to be bound by the same estoppel that would
apply [to] Puzhen based on the final result (after all
appeals) of the [present] IPR.” PO Resp. 6 (quoting
Ex. 2013, 7). Under Taylor, doTERRA is bound by
the terms of this agreement, meaning that it is
bound by any estoppel applicable to Petitioner, and a
later tribunal may preclude doTERRA from pursuing
similar challenges in a subsequent proceeding. The
terms of the agreement, however, do not apply to the
present proceeding, because no estoppel has yet
attached to Petitioner (and none will until the entry
of this Decision). See 35 U.S.C. § 315(e).

27a
Under Applications, relevant factors for
determining whether a non- party is an RPI include
the non-party’s relationship with the petitioner, the
non-party’s relationship to the petition, and the
nature of the entity filing the petition. 897 F.3d at
1351. Here, none of these factors suggests that
doTERRA is a “clear beneficiary” with a sufficient
“preexisting, established relationship with the
petitioner.” Id.
According to Patent Owner, the relationship
between doTERRA and Petitioner is that of customer
and supplier. Ex. 1030, 27. A standard customersupplier relationship does not render the absent
member of the relationship an RPI. WesternGeco LLC
v. ION Geophysical Corp., 889 F.3d 1308, 1321 (Fed.
Cir. 2018) (“ION and PGS had a contractual and fairly
standard
customer-manufacturer
relationship
regarding the accused product,” which “does not
necessarily suggest that the relationship is sufficiently
close . . . that the parties were litigating . . . the IPRs
as proxies for the other.”). Thus, the customersupplier relationship between doTERRA and
Petitioner does not render doTERRA an RPI.
The case is similar with respect to the
relationship of doTERRA and Petitioner as codefendants in an infringement lawsuit. Without
more, mere status as a co-defendant is insufficient to
render a non-party an RPI per se. Panties Plus, Inc.
v. Bragel Int’l, Inc., Case IPR2017-00044, slip op. at
7 (PTAB Apr. 12, 2017) (Paper 6).
We have been directed to no evidence of record
relating to doTERRA’s relationship to the present
Petition. PO Resp. 5–6. Accordingly, there is no
evidence that doTERRA directed or assisted in the

28a
preparation and filing of the Petition. 10 Absent such
evidence, we do not presume that doTERRA’s status
as a co-defendant in the related infringement
lawsuit means that doTERRA was involved in
preparing or filing the Petition.
Finally, as was the case with Puzhen Life HK,
there is no evidence that doTERRA has achieved any
clear benefit from Petitioner filing the Petition that
doTERRA would not have achieved by filing and
litigating the Petition itself. The complaint asserting
infringement of the ’130 patent was dated September
29, 2016, so it could have been served no earlier than
that date. Ex. 1030, 37. The Petition in the present
proceeding was filed September 28, 2017, which was
less than one year later, at which time no party
served with the infringement complaint would have
been barred by § 315(b). Pet. 61. Additionally,
doTERRA has agreed to be bound by whatever
estoppel arises against Petitioner from this
proceeding, so, to the extent that doTERRA sought
to use Petitioner as a proxy, doTERRA did not avoid
becoming subject to the consequences of this
proceeding. Ex. 2013, 7.
Because the relationships doTERRA has to
Petitioner, to the Petition, and to this proceeding are
not sufficiently close, and because the benefits of this
proceeding to doTERRA are not sufficiently great,
we conclude that the record supports a conclusion

Patent Owner did not seek any additional discovery into the
question of what role, if any, doTERRA may have played in
preparing or filing the Petition
10

29a
that Petitioner’s RPI identification is not incomplete
for failure to identify doTERRA. 11
B. Claim Construction
In an inter partes review, we construe claim terms
in an unexpired patent according to their broadest
reasonable construction in light of the specification of
the patent in which they appear. 12 37 C.F.R. §
42.100(b) (2016). Claim terms generally are given
their ordinary and customary meaning, as would be
understood by one of ordinary skill in the art in the
context of the entire disclosure. In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Petitioner proposes construing two terms: “wall”
and “included circumferential angle.” Pet. 10–11.
Patent Owner disagrees with Petitioner’s proposed
construction of “wall” but does not dispute the
construction of “included circumferential angle.” PO
Resp. 14–16.
11 Because there is no allegation of a time bar under 35 U.S.C. §
315(b), it may be that Petitioner would be permitted to correct its
Petition to remedy any incomplete identification of RPIs under
35 U.S.C. § 312(a)(2). See Lumentum Holdings, Inc. v. Capella
Photonics, Inc., Case IPR2015-00739, slip op. at 3–6 (PTAB Mar.
4, 2016) (Paper 38) (precedential) (holding that “§ 312(a) is not
jurisdictional” and that a petitioner therefore may have an
opportunity to correct a failure to comply with § 312(a)(2)).
Because we decide that Petitioner’s RPI identification is not
incomplete for failure to identify either Puzhen Life HK or
doTERRA as an RPI, however, we need not reach the question of
whether such correction is permitted here.
12 A recent amendment to this rule does not apply here, because
the Petition was filed before November 13, 2018. See “Changes
to the Claim Construction Standard for Interpreting Claims in
Trial Proceedings Before the Patent Trial and Appeal Board,” 83
Fed. Reg. 51,340 (Oct. 11, 2018) (to be codified at 37 C.F.R. pt.
42).

30a
1. “Wall”
The term “wall” appears in all three challenged
claims. Specifically, claims 1 and 3 require
“separating out a second distribution of the droplets
by passing the flow through a wall between a first
chamber and a second chamber, the flow path
spiraling
axially
and
circumferentially,
simultaneously and continuously, through an
arcuate channel formed through the wall,” and claim
17 requires “providing a separator” by “creating a
flow path for the flow spiraling axially while passing
in a circumferential direction at a substantially
constant radius around an included angle through a
wall traversed by a spiral channel.” Ex. 1001, 23:22–
41, 23:44–45, 24:39–64. Petitioner argues that “wall”
should be interpreted as “a barrier substantially
separating two spaces.” Pet. 10–11. Patent Owner
argues instead that “wall” should be interpreted as
“‘wall,’ or perhaps ‘wall or plate.’” PO Resp. 14–16.
Both parties agree that the term “wall” includes
the structure described in the Specification of the
’130 patent as flange, plate, or plane 96 of Figure 12.
Pet. 11; PO Resp. 14–15. The difference in the
parties’ positions relates to how far beyond the
structure of Figure 12 the term “wall” may reach.
Patent Owner argues that “wall” should be limited to
“a structure equivalent to the plate 96 described in
the Specification.” PO Resp. 15. There are two
problems with this argument. First, it asks us to
import limitations from the Specification of the ’130
patent.
Although “understanding the claim
language may be aided by explanations contained in
the written description, it is important not to import
into a claim limitations that are not a part of the
claim,” so we decline the invitation to do so here.

31a
Superguide Corp. v. DirecTV Enterprises, Inc., 358
F.3d 870, 875 (Fed. Cir. 2004). In addition, even if it
were proper to import limitations from the
Specification, it would not be appropriate to limit the
claim term “wall” to a “plate” on the basis of the
description of plate 96 in Figure 12 and the
accompanying portion of the Specification of the ’130
patent, because the Specification does not describe
structure 96 solely as a “plate.” Instead, the
Specification describes this structure sometimes as a
“plate,” sometimes as a “plane,” and sometimes as a
“flange.” Ex. 1001, 16:65– 17:17, 18:13–21.
Accordingly, if a “wall” is “a structure equivalent to
the plate 96,” as Patent Owner argues it is, “wall”
must be interpreted at least broadly enough to
encompass a “plane” or a “flange” in addition to a
“plate.”
Patent Owner also argues that a wall cannot be
Petitioner’s
proposed
“barrier
substantially
separating two spaces,” because claim 1 requires the
wall to be “between a first chamber and a second
chamber.” PO Resp. 15. Patent Owner is correct
that, in claim 1, the wall must be located between
two chambers, rather than two spaces. Ex. 1001,
23:22–41. Independent claim 17, on the other hand,
does not specify what type of spaces the wall
separates. Id. at 24:39–64. Accordingly, to the extent
that “chamber” is narrower than “space,” construing
“wall” as incorporating all the limitations of claim 1
would result in an impermissibly narrow
interpretation of the scope of claim 17. Instead, the
proper approach is to acknowledge that, as
Petitioner argues, a wall may separate any two
spaces, but that claim 1 is not satisfied unless those
two spaces are both chambers.

32a
Patent Owner also argues that a wall cannot
“substantially separate two spaces in just any
manner,” because claim 17 requires “a wall
traversed by a spiral channel.” PO Resp. 15–16.
Patent Owner is correct that claim 17 recites “a wall
traversed by a spiral channel.” Ex. 1001, 24:39–64.
Claim 1, on the other hand, requires “an arcuate
channel formed through the wall.” Id. at 23:22–41.
To the extent there is any difference between the
“spiral channel” of claim 17 and the “arcuate
channel” of claim 1, it would be error to limit a wall
to only structures that contain one or the other type
of channel. The better course is to treat a wall as a
barrier that can be traversed by a channel, with
claim 1 satisfied only if there is an arcuate channel
traversing the wall and claim 17 satisfied only if
there is a spiral channel traversing the wall.
Petitioner’s proposed construction is supported by
the language of the claims and written description of
the ’130 patent. Whatever form the structure labeled
96 in Figure 12 takes (flange, plate, or plane), the
purpose of that structure is to define a space below
and a separate space above, with the flow passing
from one space to the other via a channel passing
through the structure. Ex. 1001, 17:15–20 (discussing
flow passing “from below the plate 96 to above the
plate 96”), Fig. 12. Claim 1 makes this purpose clear,
specifying that the wall separates “a first chamber
and a second chamber.” Id. at 23:22–41. For these
reasons, we adopt the construction of “wall” proposed
by Petitioner, and we interpret “wall” as “a barrier
substantially separating two spaces.”

33a
2. “Included Circumferential Angle”
The term “included circumferential angle”
appears in the challenged claims only in claim 3.
Specifically, claim 3 recites a limitation requiring
that “the included circumferential angle [be] from 90
degrees to 360 degrees.” Ex. 1001, 23:44–45.
Petitioner argues that we should construe “included
circumferential angle” as “a measure of degree of
revolution around a longitudinal axis from the
beginning to the end of the channel disclosed in
claim 1.” Pet. 10. Patent Owner makes no argument
regarding how to construe this term. PO Resp. 14–
16. The parties do not disagree about the scope of
claim 3 with respect to the term “included
circumferential angle.” Accordingly, we conclude
that this term does not require express construction.
See Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200
F.3d 795, 803 (Fed. Cir. 1999) (“only those terms
need be construed that are in controversy, and only
to the extent necessary to resolve the controversy”).
C. Obviousness over Sevy and Cronenberg
Petitioner argues that the subject matter of
claims 1, 3, and 17 would have been obvious to a
person of ordinary skill in the art given the
teachings of Sevy and Cronenberg. Pet. 17–35.
1. Sevy
Sevy “relates to . . . novel systems and methods
for integrating air supplies, reservoirs and atomizers
into an integrated system.” Ex. 1003, 1:6–8.
According to Sevy, “it would be an advance in the art
to provide an atomizer that provides a better
atomization or a smaller mean or average size of
droplet in the distribution of atomized droplets

34a
compared with prior art devices capable of
atomizing.” Id. at 1:66–2:3.
Sevy discloses
accomplishing this by “rel[ying] on direction change
and momentum of impact to further comminute the
droplets into a more finely atomized mist, while
separating out comparatively larger droplets in a
comparatively very short distance.” Id. at 2:13–19. In
particular, Sevy discloses that large droplets “cannot
move with the air flow, typically because they . . .
will not be able to quickly turn to follow the flow of
air,” causing them to “strike the walls of the
opening.” Id. at 8:64–9:4. Sevy’s disclosed separator
is part of a larger system that is illustrated in Figure
7, reproduced below:

Figure 7 of Sevy depicts “a partially-exploded
perspective view of the atomizer portion of [Sevy’s]
apparatus.” Id. at 4:60–62. In Figure 7, air passed
through nozzle 92 creates a vacuum at siphon 96,

35a
causing liquid to be drawn from reservoir 18. Id. at
8:28–44. This liquid “is partially atomized by the
flow of air through the nozzle.” Id. Figure 7 also
illustrates a separator that “is formed by the main
walls of” atomizer 16 and separator plate 98,
containing aperture 99. Id. at 8:55–63. The flow of
air from the atomizer passes through aperture 99.
Id. at 8:64–65. Large droplets “cannot move with the
air flow” and “will not be able to quickly turn to
follow the flow of air,” causing them to “strike the
walls of the opening . . . or the separator plate.” Id.
at 8:65–9:4. The remaining smaller droplets of liquid
pass into the environment through distributor 17,
while the large droplets of liquid removed by the
separator agglomerate and “drip back into” the
reservoir. Id. at 9:5–43.
2. Cronenberg
Cronenberg relates to “[a] separator adapted for
use as part of a fluid dispenser system for supplying
inhalable fluids.” Ex. 1004, at [57]. “The separator is
adapted to be positioned within the fluid dispenser
system so that the mixture of liquid and gas passes
along [a] tortuous passageway,” causing “the larger
droplets of liquid [to be] removed from the mixture.”
Id. at 2:48–55. This allows the separator “to achieve
the desired vapor and avoid the presence of liquid
droplets in the gas and liquid mixture.” Id. at 1:20–
22.
Cronenberg’s
“tortuous
passageway”
is
illustrated in Figure 3, reproduced below:

36a

Figure 3 depicts the separator and nozzle
disclosed by Cronenberg. Id. at 2:63–67. The
separator includes an inner member with side wall
28 and outer casing 24. Id. at 3:7–13. Extending
along the side wall is continuous helix 32, which
extends radially outward from the side wall. Id. at
3:12–14. The outer diameter of helix 32 is chosen to
fit “in snug engagement with the inner surface” of
outer casing 24. Id. at 4:7–10.
3. Analysis
Petitioner argues that all limitations of claims 1,
3, and 17 are taught or suggested by the combination
of Sevy and Cronenberg. Pet. 17–35. Patent Owner
argues that neither Sevy nor Cronenberg teaches or
suggests the “flow path . . . through a wall” of claim
17 or the “arcuate channel formed through [a] wall”
of claim 1. PO Resp. 16–19. Patent Owner also

37a
argues that a person of ordinary skill in the art
would have had no reason to combine the teachings
of Sevy with the teachings of Cronenberg and that a
person of ordinary skill in the art would not have
had a reasonable expectation of success in combining
those teachings. Id. at 19–21, 26–27. Finally, Patent
Owner argues that the Office has granted patents
containing claims similar to but broader than the
claims challenged here, despite the Office having
been made aware of the existence of both Sevy and
Cronenberg. Id. at 22–26.
a. Claim 1
As Petitioner argues, Pet. 22–27, claim 1 recites a
preamble and seven limitations: “[a] method for
introducing a scent into breathable air,” “providing a
system comprising a reservoir, eductor, and separator
operably connected to one another,” “providing a
liquid constituting an aromatic substance selected by
an operator for the scent to be introduced into the
breathable air,” “drawing a first portion of the liquid
from the reservoir by the eductor passing a flow of
air,” “entraining the first portion of the liquid into the
flow,” “forming droplets of the first portion by at least
one of restricting an area through which the flow
passes and the entraining,” “separating out a second
distribution of the droplets by passing the flow
through a wall between a first chamber and a second
chamber, the flow path spiraling axially and
circumferentially, simultaneously and continuously,
through an arcuate channel formed through the
wall,” and “passing a first distribution of the droplets
out of the separator into the breathable air.”Ex. 1001,
23:22–41.

38a
(1) Preamble
Petitioner argues that Sevy teaches the preamble
of claim 1, a “method for introducing a scent into
breathable air.” Pet. 22–23. Patent Owner does not
dispute Petitioner’s argument or evidence. PO Resp.
16–27. Petitioner is correct. Sevy teaches essential
oils having scents. Ex. 1003, 3:30–34. Moreover,
Sevy teaches entraining these essential oils into
breathing air. Id. at 1:12–16. Accordingly, Petitioner
has shown by a preponderance of the evidence that
the combination of Sevy and Cronenberg teaches the
preamble of claim 1.
(2) “Providing a system comprising a
reservoir, eductor, and separator
operably connected to one another”
Petitioner argues that Sevy teaches a system
comprising an operably connected reservoir, educator,
and separator. Pet. 23. Patent Owner does not
dispute Petitioner’s argument or evidence. PO Resp.
16–27. Petitioner is correct. Sevy teaches drawing
liquid from a reservoir using a vacuum created by an
eductor, with a separator connected downstream of
the eductor. Ex. 1003, 8:40–59, Figs. 7, 9. Accordingly,
Petitioner has shown by a preponderance of the
evidence that the combination of Sevy and
Cronenberg teaches this limitation of claim 1.
(3) “Providing a liquid constituting an
aromatic substance selected by an
operator for the scent to be
introduced into the breathable air”
Petitioner argues that Sevy teaches providing an
aromatic liquid substance selected for the scent it
can introduce into the air. Pet. 23. Patent Owner

39a
does not dispute Petitioner’s argument or evidence.
PO Resp. 16–27. Petitioner is correct. Sevy teaches
“a bottle containing a liquid comprising a scent, such
as an essential oil may be selected from a vendor and
used directly by connection to the atomizer.” Ex.
1003, 3:30–33. Accordingly, Petitioner has shown by
a preponderance of the evidence that the
combination of Sevy and Cronenberg teaches this
limitation of claim 1.
(4) “Drawing a first portion of the liquid
from the reservoir by the eductor
passing a flow of air”
Petitioner argues that Sevy teaches drawing liquid
from the reservoir by passing air through the eductor.
Pet. 24. Patent Owner does not dispute Petitioner’s
argument or evidence. PO Resp. 16–27. Petitioner is
correct. Sevy teaches that “[e]duction by the stream of
air through the nozzle 92 draws a vacuum (e.g.,
reduced pressure) on the siphon 96, drawing liquid
from the reservoir 18.” Ex. 1003, 8:40–44. Accordingly,
Petitioner has shown by a preponderance of the
evidence that the combination of Sevy and
Cronenberg teaches this limitation of claim 1.
(5) “Entraining the first portion of the
liquid into the flow”
Petitioner argues that Sevy teaches entraining
the liquid drawn from the reservoir into the flow of
air. Pet. 24. Patent Owner does not dispute
Petitioner’s argument or evidence. PO Resp. 16–27.
Petitioner is correct. Sevy teaches that “[t]he liquid
from the reservoir is partially atomized by the flow
of air through the nozzle 92 as it educts the liquid.”
Ex. 1003, 8:40–44. Moreover, Sevy teaches
entraining the liquid from its reservoir into

40a
breathing air. Id. at 1:12–16. Accordingly, Petitioner
has shown by a preponderance of the evidence that
the combination of Sevy and Cronenberg teaches this
limitation of claim 1.
(6) “Forming droplets of the first portion
by at least one of restricting an area
through which the flow passes and
the entraining”
Petitioner argues that Sevy teaches forming
droplets of the liquid it draws from its reservoir by
entraining the liquid in the flow of air. Pet. 24. Patent
Owner does not dispute Petitioner’s argument or
evidence. PO Resp. 16–27. Petitioner is correct. As
discussed above, Sevy teaches that “[t]he liquid from
the reservoir is partially atomized by the flow of air
through the nozzle 92 as it educts the liquid.” Ex.
1003, 8:40–44. Moreover, Sevy teaches forming
droplets of the liquid. Id. at 8:45–54. Accordingly,
Petitioner has shown by a preponderance of the
evidence that the combination of Sevy and
Cronenberg teaches this limitation of claim 1.
(7) “Separating out a second distribution
of the droplets by passing the flow
through a wall between a first
chamber and a second chamber, the
flow path spiraling axially and
circumferentially,
simultaneously
and continuously, through an arcuate
channel formed through the wall”
Petitioner argues that the combination of Sevy
and Cronenberg teaches this limitation of claim 1.
Pet. 24–27. Patent Owner argues that neither
reference individually teaches or suggests this
limitation, because neither reference teaches or

41a
suggests the recited “arcuate channel formed
through the wall.” PO Resp. 16–19. Patent Owner
also argues that a person of ordinary skill in the art
would not have had a reason to combine the
teachings of Sevy with those of Cronenberg to arrive
at this limitation of claim 1. Id. at 19–21, 26–27.
There is evidence to support Petitioner’s
argument. First, Sevy teaches separating some
droplets from the mixed droplet-air flow by passing
the flow through an orifice in a wall between a first
chamber and a second chamber. Ex. 1003, 8:64–9:2
(“[T]he separator plate 98 passes the flow of air from
the atomizer 16 through apertures 99 therein.
Droplets that . . . have too large a size and mass will
not be able to quickly turn to follow the flow of air.”).
Second, Cronenberg teaches forcing a mixture of air
and water droplets through a helical channel “to
cause centrifugal force to push . . . water droplets out
of the mixture.” Ex. 1004, 5:37–43, Fig. 3.
Cronenberg also teaches that “[o]ther types of radial
surfaces can . . . be utilized, such as . . . arcuate
passageways in place of the helix.” Id. at 3:12–21.
Mr. Smith testifies that a person of ordinary skill in
the art “would [have] replace[d] the aperture(s) in
plate 98 with the helical pathway of Cronenberg.”
Ex. 1007, 49–50. Where, as here, the prior art
teaches two alternative methods for achieving the
same result, it likely would have been obvious to
substitute one for the other. In re Fout, 675 F.2d 297,
301 (CCPA 1982) (“Because both Pagliaro and
Waterman teach a method for separating caffeine
from oil, it would have been prima facie obvious to
substitute one method for the other.”); see KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 417 (2007) (an
invention is likely obvious if it is no “more than the

42a
predictable use of prior art elements according to
their established functions”). Thus, Petitioner has
directed us to evidence showing that it would have
been obvious to substitute an arcuate channel, as
taught by Cronenberg, for the straight orifice in
Sevy’s plate. When this substitution is made, the
combination of Sevy and Cronenberg teaches using
an arcuate passageway to separate liquid droplets
from a mixed air-droplet flow as the flow moves from
a chamber on one side of a wall to a chamber on the
other side of the wall.
Patent Owner argues that, despite this evidence,
Petitioner has not shown that claim 1 would have
been obvious over the combination of Sevy and
Cronenberg, because neither Sevy nor Cronenberg
individually teaches or suggests “an arcuate channel
formed through the wall.” PO Resp. 16–19. Patent
Owner is correct that neither reference, considered
by itself, teaches forming an arcuate channel
through a wall for the purpose of separating liquid
droplets out of a mixed air-droplet flow. Sevy’s
separator passes its flow through a wall, but not
using an arcuate passageway. Ex. 1003, 8:64– 9:2.
Cronenberg teaches accomplishing the same type of
separation using an arcuate passageway, but not one
passing through a wall. Ex. 1004, 3:12–21, 5:37–43,
Fig. 3. Instead, Cronenberg’s arcuate or helical
passageway is placed between two structures, an
inner member with side wall 28 and an outer casing
24. Id. at 3:7–13. But Petitioner does not argue that
either Sevy or Cronenberg alone teaches or suggests
an arcuate passageway through a wall. Pet. 24–27.
Instead, Petitioner argues that a person of ordinary
skill in the art would have combined the teachings of
Sevy with the teachings of Cronenberg to arrive at

43a
an arcuate passageway through a wall as a means of
separating droplets from a mixed air-droplet flow.
Id. As discussed above, there is evidence to support
this argument.
Patent Owner counters that a person of ordinary
skill in the art would not have combined the
teachings of Sevy with those of Cronenberg. PO
Resp. 19–21, 26–27. Patent Owner offers several
arguments along these lines. First, Patent Owner
argues that the combination of Sevy and Cronenberg
“changes the principles under which Cronenberg was
designed to operate,” meaning that the teachings of
the references could be combined only through
hindsight inspired by the ’130 patent itself. Id. at
19–20. Patent Owner is correct that a reference
cannot form part of an obviousness combination
when the combination “would require a substantial
reconstruction and redesign of the elements shown
in [the reference] as well as a change in the basic
principles under which the [reference] was designed
to operate.” In re Ratti, 270 F.2d 810, 813 (CCPA
1959). But Petitioner’s proposed combination of Sevy
and Cronenberg is quite different from the
problematic combination in Ratti. In that case, the
proposed combination required a resilient seal when
the reference in question taught a rigid seal. Id.
There is nothing of the sort here. In the proposed
combination of Sevy and Cronenberg, a person of
ordinary skill in the art would have understood that
Sevy’s separation could be accomplished using an
arcuate passageway of the type taught in
Cronenberg, but retaining the plate of Sevy by
replacing Sevy’s orifice with the arcuate passageway.
Pet. 26; Ex. 1007, 51 (depicting “the arcuate
passageway” of Cronenberg placed to traverse a

44a
plate such as the plate of Sevy). There is no evidence
in the record developed at trial that suggests that,
just as rigidity and resiliency were opposite
principles in Ratti, separation by arcuate
passageway through a wall and separation by orifice
through a wall are opposites. Accordingly, we are not
persuaded that Petitioner’s proposed combination
depends upon hindsight.
Patent Owner next argues that a person of
ordinary skill in the art would not have replaced
Sevy’s orifice with an arcuate channel à la
Cronenberg because doing so “would result in
markedly different flow momentums with the
associated structures.” PO Resp. 20 (citing Ex. 2024
¶¶ 111, 122). The evidence Patent Owner cites is the
testimony of David A. Bell, Ph.D., P.E., who states
that “[i]nserting the helix from Cronenberg into the
aperture in Sevy would result in markedly different
flow momentums with the associated structures,” as
well as that a person of ordinary skill in the art
“would not have recognized that the spiral path in
Cronenberg could be used with the aperture in
Sevy.” Ex. 2024 ¶¶ 111, 122. But Dr. Bell does not
provide the factual basis for his testimony on flow
momentum, nor does he explain the reasoning
supporting his conclusions. Because Dr. Bell’s
testimony is conclusory and unsupported, it is
unhelpful and unpersuasive. Exmark Mfg. Co. v.
Briggs & Stratton Power Prods. Grp., LLC, 879 F.3d
1332, 1350 (Fed. Cir. 2018) (conclusory statements
by expert in support of damages analysis cannot
support a verdict); Arendi S.A.R.L. v. Apple Inc., 832
F.3d 1355, 1366 (Fed. Cir. 2016) (conclusory
statements by expert in support of obviousness
analysis may not be relied upon). Moreover, even if

45a
the testimony could support a finding that
incorporating Cronenberg’s concept of a helical or
arcuate passageway for separation into Sevy’s
separation plate would change the flow through the
plate, this would be evidence of nothing more than
the changed geometry of the system, not necessarily
evidence of the concept’s unworkability. Thus, we are
not persuaded by the testimony of Dr. Bell that a
person of ordinary skill in the art would have
avoided incorporating Cronenberg’s concept of a
helical or arcuate passageway for separation into
Sevy’s separation plate.
Patent Owner also argues that the “design and
spacing” of Cronenberg “would not work for an
essential oil aroma diffuser because . . . the small
openings and flow in the same direction would likely
cause all sizes of oil droplets to coalesce as they move
in the same direction with the flow.” PO Resp. 20–
21. This argument is unpersuasive for two reasons.
First, none of the challenged claims requires “an
essential oil aroma diffuser.” Claims 1 and 3 recite
“a liquid constituting an aromatic substance,” and
claim 17 recites “a liquid,” with an optional
limitation that the liquid “constitutes an aromatic
substance.” Ex. 1001, 23:22–41, 24:39–64. These
limitations do not limit the claims to use with oils,
much less essential oils. Second, this argument
ignores Petitioner’s proposed combination, in which
the concept of an arcuate passageway for separation
is taken from Cronenberg and used to replace the
straight orifice through a separation plate in Sevy.
Pet. 26 (“In place of aperture 99 of Sevy, a [person of
ordinary skill in the art] would find it obvious to
substitute Cronenberg’s arcuate channel to achieve a
desired separation.”). Nowhere in this proposed

46a
combination does Petitioner argue in favor of
incorporating the “design and spacing” of
Cronenberg’s helical channel. Thus, we are not
persuaded by this argument that Petitioner has
failed to show that a person of ordinary skill in the
art would have had a reason to combine the
teachings of Sevy and Cronenberg.
Finally, Patent Owner argues that, because
Giroux, Kato, and Stroia “do not teach separation
techniques,” a person of ordinary skill in the art
likely would have concluded that “an arcuate
channel, or a spiral pathway, would not be a good
choice when seeking to achieve separation.” PO
Resp. 26–27. According to Patent Owner, this is
because, in light of the lack of separation teachings
in Giroux, Kato, and Stroia, using Cronenberg’s
arcuate channel to perform separation would have
meant “proceeding contrary to accepted wisdom.” Id.
at 26 (citing In re Hedges, 783 F.2d 1038 (Fed. Cir.
1986)). We do not interpret Hedges as establishing a
rule that, where much of the prior art is silent on a
particular claimed technique, practicing that
technique is “contrary to accepted wisdom.” Instead,
in Hedges, where the claim at issue required a
reaction to proceed at high temperatures, the prior
art
consistently
“suggest[ed]
that
lower
temperatures of reaction were preferable.” 783 F.2d
at 1041. An equivalent situation here might be if
Giroux, Kato, and Stroia all suggested that
separation using a straight orifice through a plate
was better in some important respect than
separation using an arcuate pathway, but Patent
Owner does not argue that this is the case. PO Resp.
26–27. Moreover, even if Giroux, Kato, and Stroia all
taught a different separation method from

47a
Cronenberg, we still would be faced with
Cronenberg’s own teaching that forcing a mixture of
air and liquid droplets through a helical channel
“cause[s] centrifugal force to push . . . water droplets
out of the mixture.” Ex. 1004, 5:37–43. Accordingly,
we are not persuaded by this argument that
Petitioner has failed to show that a person of
ordinary skill in the art would have had a reason to
combine the teachings of Sevy and Cronenberg.
For these reasons, we conclude that Petitioner
has shown by a preponderance of the evidence that a
person of ordinary skill in the art would have had
reason to combine the teachings of Sevy with those
of Cronenberg, and we conclude that Petitioner has
shown by a preponderance of the evidence that the
combination of Sevy and Cronenberg teaches this
limitation of claim 1.
(8) “Passing a first distribution of the
droplets out of the separator into the
breathable air”
Petitioner argues that Sevy teaches passing the
mixture of air and droplets that pass through its
separator into breathable air. Pet. 27. Patent Owner
does not dispute Petitioner’s argument or evidence.
PO Resp. 16–27. Petitioner is correct. Sevy teaches
that its “flow of air passes through the aperture 122 of
the separator plate,” and it “carries with it only those
droplets that are sufficiently small . . . that they will
drift substantially indefinitely with ambient air
movement as they evaporate.” Ex. 1003, 10:65–11:4.
Accordingly, Petitioner has shown by a preponderance
of the evidence that the combination of Sevy and
Cronenberg teaches this limitation of claim 1.

48a
b. Claim 3
Claim 3 depends from claim 1 and adds a
limitation
requiring
that
“the
included
circumferential angle [be] from 90 degrees to 360
degrees.” Ex. 1001, 23:44–45. Petitioner argues that
Cronenberg teaches or suggests this limitation. Pet.
27–29. Patent Owner does not dispute Petitioner’s
argument or evidence. PO Resp. 16–27. Petitioner is
correct. Cronenberg teaches helical channels that
turn through more than 360 degrees from their
entrance to their exit, but there is evidence of record
showing that the amount of rotation through which a
helical channel turns is a result-effective variable.
Ex. 1002, 217–18 (“the length of the arcuate channel
and the size of the included angle are result effective
variables”); Ex. 1004, Fig. 3. When a variable is
recognized as result-effective, “the discovery of an
optimum value of [the] variable . . . is normally
obvious.” In re Antonie, 559 F.2d 618, 620 (CCPA
1977). Thus, Cronenberg at least suggests helical
channels that turn through an angle from 90 degrees
through 360 degrees. Moreover, in addition to
teaching helical channels and depicting those
channels with included circumferential angles greater
than 360 degrees, Cronenberg teaches the use of
“[o]ther types of radial surfaces,” including “arcuate
passageways in place of the helix 32 to accomplish
similar results.” Ex. 1004, 3:12–18. Mr. Smith
testifies that a person of ordinary skill in the art
would have understood that the term “arcuate” in
Cronenberg referred to a curve “like a bow or arch,
which would be less than 360 degrees.” Ex. 1007, 50.
Dr. Bell agrees. Ex. 1028, 223:13–16. Accordingly,
Petitioner has shown by a preponderance of the

49a
evidence that the combination of Sevy
Cronenberg teaches the limitation of claim 3.

and

c. Claim 17
As Petitioner argues, Pet. 29–35, claim 17 recites
a preamble (“a method”) and nine limitations:
“providing a reservoir connection to draw a liquid
from a reservoir,” “providing an eductor connected to
draw the liquid from the reservoir and entrain the
liquid as droplets into a flow of air,” “providing a
separator downstream from the eductor to receive
the flow and divide out the comparatively larger
sizes of droplets from the comparatively smaller
sizes thereof remaining in the flow,” “the providing a
separator, further comprising creating a flow path
for the flow spiraling axially while passing in a
circumferential direction at a substantially constant
radius around an included angle through a wall
traversed by a spiral channel,” “the providing a
separator, further comprising providing a crosssectional area of the flow path having a substantially
constant value within the included angle,” “providing
a nozzle to direct the flow into a surrounding
environment,” “providing a nozzle connection to the
separator,” “providing an eductor connection to the
separator,” and “distributing the system with at
least one of instructions for use, a reservoir, and the
liquid, wherein the liquid constitutes an aromatic
substance selected for the scent to be introduced into
the surrounding environment.” Ex. 1001, 24:39–64.
(1)“Providing a reservoir connection to
draw a liquid from a reservoir”
Petitioner argues that Sevy teaches this
limitation. Pet. 29–30. Patent Owner does not
dispute Petitioner’s argument or evidence. PO Resp.

50a
16–27. Petitioner is correct. Sevy teaches drawing
liquid from a reservoir using an eductor connected to
the reservoir.
Ex. 1003, 8:40–59, Figs. 7, 9.
Accordingly,
Petitioner
has
shown
by
a
preponderance of the evidence that the combination
of Sevy and Cronenberg teaches this limitation of
claim 17.
(2)“Providing an eductor connected to
draw the liquid from the reservoir
and entrain the liquid as droplets
into a flow of air”
Petitioner argues that Sevy teaches this limitation.
Pet. 30. Patent Owner does not dispute Petitioner’s
argument or evidence. PO Resp. 16–27. Petitioner is
correct. Sevy teaches that “[e]duction by the stream of
air through the nozzle 92 draws a vacuum (e.g.,
reduced pressure) on the siphon 96, drawing liquid
from the reservoir 18.” Ex. 1003, 8:40–44. Sevy also
teaches that “[t]he liquid from the reservoir is partially
atomized by the flow of air through the nozzle 92 as it
educts the liquid.” Id. Moreover, Sevy teaches
entraining the liquid from its reservoir into breathing
air. Id. at 1:12–16. Accordingly, Petitioner has shown
by a preponderance of the evidence that the
combination of Sevy and Cronenberg teaches this
limitation of claim 17.
(3)“Providing a separator downstream
from the eductor to receive the flow
and divide out the comparatively
larger sizes of droplets from the
comparatively smaller sizes thereof
remaining in the flow”
Petitioner argues that Sevy teaches this
limitation. Pet. 30–31. Patent Owner does not

51a
dispute Petitioner’s argument or evidence. PO Resp.
16–27. Petitioner is correct. Sevy teaches drawing
liquid from a reservoir using a vacuum created by an
eductor, with a separator connected downstream of
the eductor. Ex. 1003, 8:40–59, Figs. 7, 9. Sevy also
teaches that “[d]roplets that cannot move with the
air flow, typically because they have too large a size
and mass will not be able to quickly turn to follow
the flow of air, and will strike the walls of the
opening 100 or the separator plate 98.” Id. at 8:55–
9:2.
Accordingly, Petitioner has shown by a
preponderance of the evidence that the combination
of Sevy and Cronenberg teaches this limitation of
claim 17.
(4)“The providing a separator, further
comprising creating a flow path for
the flow spiraling axially while
passing
in
a
circumferential
direction at a substantially constant
radius around an included angle
through a wall traversed by a spiral
channel”
Petitioner argues that the combination of Sevy
and Cronenberg teaches this limitation of claim 17.
Pet. 31–33.
Patent Owner argues that the
combination of Sevy and Cronenberg fails to teach or
suggest this limitation for the same reasons
discussed above with respect to the limitation of
claim 1 reciting “separating out a second distribution
of the droplets by passing the flow through a wall
between a first chamber and a second chamber, the
flow path spiraling axially and circumferentially,
simultaneously and continuously, through an
arcuate channel formed through the wall.” PO Resp.
16–19. Patent Owner also argues that a person of

52a
ordinary skill in the art would not have had a reason
to combine the teachings of Sevy with those of
Cronenberg to arrive at this limitation of claim 17.
Id. at 19–21, 26–27.
As discussed above with respect to claim 1, we
find that a person of ordinary skill in the art would
have had a reason to combine the teachings of Sevy
with those of Cronenberg, and we find that the
combined teachings of Sevy and Cronenberg teach
providing a channel that spirals axially while
passing in a circumferential direction around an
included angle through a wall. These findings apply
with equal force here.
With respect to the portion of this limitation
requiring that the radius of curvature of the channel
be “substantially constant,” Petitioner argues that
Cronenberg teaches using a helical flow path of
constant radius to separate droplets from an airdroplet mixture. Pet. 31–32. Patent Owner does not
dispute this point. PO Resp. 16–27. Petitioner is
correct, because Cronenberg’s helix 32 is depicted as
having a constant radius of curvature. Ex. 1004, Fig. 3.
For these reasons, we conclude that Petitioner
has shown by a preponderance of the evidence that
the combination of Sevy and Cronenberg teaches this
limitation of claim 17.
(5)“The providing a separator, further
comprising providing a crosssectional area of the flow path
having a substantially constant
value within the included angle”
Petitioner argues that Cronenberg teaches this
limitation. Pet. 33–34. Patent Owner does not

53a
dispute Petitioner’s argument or evidence. PO Resp.
16–27. Petitioner is correct. Cronenberg teaches that
its helical path is formed by a structure “with a
predetermined spacing and dimensional thickness,”
and it is depicted as having a constant cross-section.
Ex. 1004, 3:12–21, Fig. 3. Accordingly, Petitioner has
shown by a preponderance of the evidence that the
combination of Sevy and Cronenberg teaches this
limitation of claim 17.
(6)“Providing a nozzle to direct the flow
into a surrounding environment”
Petitioner argues that Sevy teaches this
limitation. Pet. 34. Patent Owner does not dispute
Petitioner’s argument or evidence. PO Resp. 16–27.
Petitioner is correct. Sevy teaches that “director 17
may be turned in a particular direction to discharge
a jet of air containing the cloud of smallest atomized
droplets from the reservoir 18.” Ex. 1003, 9:25–28.
Accordingly,
Petitioner
has
shown
by
a
preponderance of the evidence that the combination
of Sevy and Cronenberg teaches this limitation of
claim 17.
(7)“Providing a nozzle connection to the
separator”
Petitioner argues that Sevy teaches this
limitation. Pet. 34. Patent Owner does not dispute
Petitioner’s argument or evidence. PO Resp. 16–27.
Petitioner is correct. Sevy teaches that “[t]he net
flow of air passes through the aperture 122 of the
separator plate 98, on its way into the passages 126
and 128 of the director 17.” Ex. 1003, 10:65–67.
Accordingly,
Petitioner
has
shown
by
a
preponderance of the evidence that the combination

54a
of Sevy and Cronenberg teaches this limitation of
claim 17.
(8)“Providing an eductor connection to
the separator”
Petitioner argues that Sevy teaches this
limitation. Pet. 34–35. Patent Owner does not
dispute Petitioner’s argument or evidence. PO Resp.
16–27. Petitioner is correct. Sevy teaches that
“[e]duction by the stream of air through the nozzle
92 draws a vacuum (e.g., reduced pressure) on the
siphon 96, drawing liquid from the reservoir 18.” Ex.
1003, 8:40–44. Sevy also teaches that “[t]he liquid
from the siphon 96 is atomized into droplets of
various sizes,” with “[t]he entire mixture of air and
droplets pass[ing] through the exit orifice 119 toward
the separator 120.” Id. at 10:37–47. Accordingly,
Petitioner has shown by a preponderance of the
evidence that the combination of Sevy and
Cronenberg teaches this limitation of claim 17.
(9)“Distributing the system with at least
one of instructions for use, a
reservoir, and the liquid, wherein the
liquid constitutes an aromatic
substance selected for the scent to be
introduced into the surrounding
environment”
Petitioner argues that Sevy teaches this
limitation. Pet. 35. Patent Owner does not dispute
Petitioner’s argument or evidence. PO Resp. 16–27.
Petitioner is correct. Sevy teaches both connecting a
reservoir to the remainder of the system and using a
bottle of essential oil “selected from a vendor” as this
reservoir. Ex. 1003, 3:30–33, 6:28–29. Accordingly,
Petitioner has shown by a preponderance of the

55a
evidence that the combination of Sevy
Cronenberg teaches this limitation of claim 17.

and

d. Related Application
As discussed above, Petitioner has shown that a
person of ordinary skill in the art would have had a
reason to combine the teachings of Sevy with those
of Cronenberg, as well as that the combined
teachings of Sevy and Cronenberg teach or suggest
the subject matter of claims 1, 3, and 17. Despite
this, Patent Owner argues that we should conclude
that claims 1, 3, and 17 have not been shown to be
obvious because the Office has issued a Notice of
Allowance of similar claims in a related patent
application. PO Resp. 22–26. Specifically, Patent
Owner argues that claim 40 in U.S. Patent
Application Serial No. 15/297,542 (Ex. 2023, “the
’542 application”) was allowed, even though it is
broader in scope than the challenged claims of the
’130 patent, and even though the examiner of the
’542 application was made aware of the prior art
asserted in this proceeding. Id. For the reasons
discussed below, we are not persuaded that the
examiner’s treatment of claim 40 in the ’542
application shows the nonobviousness of the
challenged claims here.
First, Patent Owner argues that claim 40 “should
be considered broader in scope than claim 1 from the
’130 patent.” Id. at 24. But claim 40 contains
limitations not present in claim 1. For example,
claim 1 recites “an arcuate channel formed through
the wall,” but claim 40 recites “an arcuate channel
defined by a wall formed with a substantially
concave
internal
cross
section
passing
circumferentially and axially, simultaneously,

56a
through the barrier.” Id. at 22–23; see Ex. 1028,
185:7–17. In addition, claim 1 recites “separating out
a second distribution of the droplets,” without
specifying the characteristics of the separated
droplets, but claim 40 recites a limitation on the
droplets that are separated, “wherein the arcuate
channel has a radius and a circumferential length
selected to separate out from the flow comparatively
larger ones of the droplets.” PO Resp. 22–23. Given
these additional limitations, we do not find that
claim 40 of the ’542 application is broader in scope
than claim 1 of the ’130 patent.
Moreover, Patent Owner raises the issue of the
allowance of claim 40 of the ’542 application as a
“secondary indic[ator] of the non-obviousness of
claims 1, 3 and 17.” PO Resp. 22. But “secondary
considerations” include such things as “commercial
success, long felt but unsolved needs, failure of
others, etc.” Graham v. John Deere Co. of Kansas
City, 383 U.S. 1, 17 (1966). The list has expanded to
include evidence of such things as licensing or
copying of the invention at issue and praise by
others, but Patent Owner directs us to no authority
for treating the Office’s allowance of similar claims
as an objective indication of non-obviousness. 13 PO
Resp. 21–26. In any event, as discussed above, claim
Even if there were authority for considering the allowance of
similar claims as evidence of nonobviousness, it is not clear
that we would be permitted to weigh such evidence particularly
heavily in our analysis. The Office allowed the challenged
claims, but that allowance does not relieve us of our duty to
determine whether those claims are unpatentable. 35 U.S.C.
§§ 311–319. If the Office’s allowance of the very claims at issue
does not render the challenged claims non-obvious, it is unclear
why the Office’s allowance of merely similar claims would do
so.
13

57a
40 of the ’542 application has different limitations
than the challenged claims, and the Examiner of
claim 40 considered different evidence than that
presented here. In our view, under these
circumstances, it is better to evaluate each
individual claim on its own merits.
For these reasons, we are not persuaded that the
examiner’s allowance of claim 40 in the ’542
application is evidence that the challenged claims of
the ’130 patent would have been nonobvious.
e. Conclusion
For the reasons discussed above, we conclude that
Petitioner has shown by a preponderance of the
evidence that claims 1, 3, and 17 of the ’130 patent
would have been obvious over the combination of
Sevy and Cronenberg.
D. Asserted Obviousness over Sevy and Giroux
Petitioner argues that the subject matter of
claims 1, 3, and 17 would have been obvious to a
person of ordinary skill in the art given the
teachings of Sevy and Giroux. Pet. 35–43.
1.

Giroux

Giroux relates to “a novel integrated nebulizer
and particle dispersion chamber” that “provides for
delivery of a vortical flow of nebulized particles to
the nostrils.” Ex. 1005, at [57]. According to Giroux,
“particle size and velocity characteristics determine
whether a majority of a medicament will reach the
deep nasal cavities, the paranasal sinuses, the
bloodstream, the circulation (systematic delivery),
the lungs, or drip back down the nose or mouth.” Id.
at 2:20–25. To achieve these beneficial “size and
velocity characteristics,” Giroux teaches forcing the

58a
particles to flow through serpentine or helical baffles
that cause the particles to move in a vortex after
leaving the particle dispersion chamber. Id. at
13:32–42. Figures 14A and 14B of Giroux are
reproduced below:

Figures 14A and 14B of Giroux, reproduced
above, depict the “nasal adapter, particle dispersion
chamber, and tubing” of one embodiment of Giroux,
with Figure 14A being a side view and Figure 14B
being a bottom view. Id. at 4:40–43.
Particle
dispersion chamber 85 includes baffles 100 that are
“shaped so as to create movement of the particles
while in a vortex.” Id. at 13:32–36. In Figures 14A
and 14B, baffles 100 are “shown in a generally
serpentine or helix shape.” Id. at 13:36–38.

59a
2.

Analysis

Petitioner argues that a person of ordinary skill
in the art would have had reason to combine the
teachings of Sevy with the teachings of Giroux and
that those combined teachings teach or suggest
every limitation of claims 1, 3, and 17. Pet. 35–43. As
with the combination of Sevy and Cronenberg
discussed above, Petitioner argues that Sevy by itself
teaches all limitations of the claims except for those
relating to a flow path spiraling axially and
circumferentially through an arcuate channel
formed through a wall (claim 1) or creating a flow
path for flow spiraling axially while passing
circumferentially at a substantially constant radius,
and with a substantially constant cross-sectional
area, around an included angle through a wall (claim
17). Id. As discussed above, we find that Sevy
teaches each of these limitations. For the remaining
limitations, Petitioner relies on a combination of
Giroux and Sevy. Id.
Opposing Petitioner’s arguments, as it did with
respect to the Sevy-Cronenberg ground, Patent
Owner argues that neither Sevy nor Giroux alone
teaches or suggests an arcuate channel formed
through a wall. PO Resp. 27–In addition, as with
the Sevy-Cronenberg ground, Patent Owner argues
that a person of ordinary skill in the art would not
have combined the teachings of Sevy with those of
Giroux. Id. at 28–30, 32–33. Finally, as with the
Sevy-Cronenberg ground, Patent Owner argues that
the allowance of the claims in the related ’542
application is evidence that the similar claims here
are nonobvious. Id. at 31–32.

60a
a. The “Arcuate Channel Formed Through
a Wall” Limitations
Petitioner argues that the limitations of the
challenged claims related to the formation of an
arcuate channel through a wall are taught by the
combination of Sevy and Giroux. Pet. 39–40. Patent
Owner argues that Giroux alone “does not teach a
channel through a wall.” PO Resp. 27–28.
As discussed above with respect to the SevyCronenberg ground, Sevy teaches separating some
droplets from the mixed droplet-air flow by passing
the flow through an orifice in a wall between a first
chamber and a second chamber. Ex. 1003, 8:64–9:2
(“[T]he separator plate 98 passes the flow of air from
the atomizer 16 through apertures 99 therein.
Droplets that . . . have too large a size and mass will
not be able to quickly turn to follow the flow of air.”).
Just as Cronenberg teaches forcing a mixture of air
and liquid droplets through a helical channel “to
cause centrifugal force to push . . . water droplets out
of the mixture,” Ex. 1004, 5:37–43, Giroux teaches
causing the droplets in an air-droplet mixture to be
“swirled into a vortex,” which “act[s] like a clarifier”
by “send[ing] the larger droplets to the outside rings
and . . . keep[ing] the smaller diameter droplets in
the air stream for a longer period of time.” Ex. 1005,
8:60–62, 12:33–37. Giroux teaches achieving this
result by passing “nebulized particles” through a
“particle dispersion chamber” that contains
“baffle[s]” that have a “serpentine or helix shape.”
Id. at 13:32–42. Mr. Smith testifies that a person of
ordinary skill in the art “would [have] replace[d] the
aperture(s) in plate 98 with the helical shaped baffle
of Giroux.” Ex. 1007, 58–59. Thus, the combination
of Sevy and Giroux suggests separating larger

61a
droplets from an air-droplet mixture by passing the
mixture through a wall with an opening defined by a
helical baffle. This satisfies the “arcuate channel
formed through a wall” limitations of the challenged
claims.
b. Claim 3
Claim 3 depends from claim 1 and adds a
limitation
requiring
that
“the
included
circumferential angle [be] from 90 degrees to 360
degrees.” Ex. 1001, 23:44–45. Petitioner argues that
Giroux teaches this limitation. Pet. 40–41. Patent
Owner does not dispute Petitioner’s argument or
evidence. PO Resp. 27–33. Petitioner is correct.
Giroux depicts its helical baffles turning through
more than 90 degrees but less than 360 degrees from
their entrance to their exit. Ex. 1005, Fig. 14A.
Accordingly,
Petitioner
has
shown
by
a
preponderance of the evidence that the combination
of Sevy and Cronenberg teaches the limitation of
claim 3.
c. Reason to Combine
As discussed above, Sevy and Giroux teach or
suggest the limitations of the challenged claims only
if there was a reason for a person of ordinary skill in
the art to combine their teachings. Petitioner argues
that a person of ordinary skill in the art would have
had such a reason. Pet. 36–38. Patent Owner
disagrees. PO Resp. 28–30, 32–33.
Petitioner has shown by a preponderance of the
evidence that a person of ordinary skill in the art
would have had a reason to combine the teachings of
Sevy with those of Giroux. As noted above, Mr.
Smith testifies that a person of ordinary skill in the

62a
art “would [have] replace[d] the aperture(s) in plate
98 with the helical shaped baffle of Giroux.” Ex.
1007, 58–59. Petitioner argues that both Sevy and
Giroux teach separation of larger droplets from the
air-droplet mixture, but Patent Owner argues that
Giroux “has nothing whatsoever to do with
separation.” Pet. 36–38; PO Resp. 29. As discussed
above, Giroux teaches causing the droplets in an airdroplet mixture to be “swirled into a vortex,” which
“act[s] like a clarifier” by “send[ing] the larger
droplets to the outside rings and . . . keep[ing] the
smaller diameter droplets in the air stream for a
longer period of time.” Ex. 1005, 8:60–62, 12:33–37.
Because Giroux teaches keeping smaller droplets in
the air stream longer than larger droplets, it teaches
separating the larger droplets from the air stream.
Accordingly, both Sevy and Giroux teach methods of
removing large droplets from mixtures of air and
liquid droplets. Where the prior art teaches two
alternative methods for achieving the same result, it
likely would have been obvious to substitute one for
the other. Fout, 675 F.2d at 301; see KSR, 550 U.S.
at 417 (an invention is likely obvious if it is no “more
than the predictable use of prior art elements
according to their established functions”). Thus,
Petitioner has directed us to evidence showing that
it would have been obvious to substitute a channel
defined by a helical baffle, as taught by Giroux, for
the straight orifice in Sevy’s plate.
Patent Owner argues that replacing Sevy’s
straight orifice with a helical channel based on
Giroux’s
teachings
“would
render
Sevy
unsatisfactory for Sevy’s intended purpose.” PO
Resp. 29–30. This is allegedly because “Giroux does
not teach separation, but instead teaches mixing and

63a
directing a vortex.” Id. at 30. As just discussed,
however, Giroux teaches “keep[ing] the smaller
diameter droplets in the air stream for a longer
period of time” while “send[ing] the larger droplets to
the outside rings” in order to “clarif[y]” the airdroplet mixture. Ex. 1005, 8:60–62, 12:33–37.
Clarifying the mixture by removing the larger
droplets, while leaving the smaller droplets in place,
is a means of separating the larger and smaller
droplets. Thus, Giroux teaches separation. Because
Giroux teaches separation, incorporating its
teachings into Sevy’s method of separation is not, as
Patent Owner argues, the replacement of a
separation method with a mixing method, and does
not render Sevy unsatisfactory for its purpose of
separating the larger droplets out of the air-droplet
mixture.
The same issue plagues Patent Owner’s
argument that, because Giroux, Kato, and Stroia all
fail to teach that their helical structures can be used
to separate droplets from air-droplet mixtures, “the
majority of the prior art . . . does not teach
separation,” making separation using a helical
structure “contrary to accepted wisdom in the art.”
PO Resp. 32–33. Moreover, Patent Owner argues
that this means that combining the teachings of
Sevy and Giroux violates the rule of Hedges. Id. As
discussed above, we do not interpret Hedges as
establishing a rule that, where much of the prior art
is silent on a particular claimed technique,
practicing that technique is “contrary to accepted
wisdom.”
For these reasons, we conclude that Petitioner
has shown by a preponderance of the evidence that a
person of ordinary skill in the art would have had a

64a
reason to combine the teachings of Sevy with those
of Giroux.
d. Related Application
Patent Owner repeats its argument that the
allowance of claim 40 in the ’542 application shows
the nonobviousness of the challenged claims of the
’130 patent. PO Resp. 31–32. As discussed above,
we do not find the examiner’s allowance of claim 40
in the ’542 application to be persuasive evidence of
the nonobviousness of the challenged claims.
e. Conclusion
For the reasons discussed above, we conclude
that Petitioner has shown by a preponderance of the
evidence that claims 1, 3, and 17 of the ’130 patent
would have been obvious over the combination of
Sevy and Giroux.
E. Asserted Obviousness over Sevy and Kato or
over Sevy and Stroia
Petitioner argues that the subject matter of
claims 1, 3, and 17 would have been obvious to a
person of ordinary skill in the art given the
teachings of Sevy and Kato. Pet. 43–51. Petitioner
also argues that the subject matter of claims 1, 3,
and 17 would have been obvious to a person of
ordinary skill in the art given the teachings of Sevy
and Stroia. Pet. 51–60. As discussed above, we
conclude that all of the challenged claims are
unpatentable over both the combination of Sevy and
Cronenberg and the combination of Sevy and Giroux.
Accordingly, we need not reach the issue of the
unpatentability of the challenged claims on either of
the remaining grounds. Accordingly, in the interest

65a
of conserving the Board’s resources, we decline to
reach those grounds.
F. Motion to Exclude
Patent Owner moves to exclude all or portions of
five exhibits 14 filed by Petitioner, as well as to
exclude
1. Petitioner’s Reply
Patent Owner argues that the entirety of
Petitioner’s Reply to the Patent Owner Response
should be excluded because it raises new arguments
that are not responsive to issues raised in the Patent
Owner Response. Paper 19, 2–3. Patent Owner is
correct that, when a Reply presents new issues for
the first time, the Board is not required to “parse the
reply brief to determine which, if any, parts of that
brief are responsive and which are improper.”
Intelligent Bio-Systems, Inc. v. Illumina Cambridge
Ltd., 821 F.3d 1359, 1369 (Fed. Cir. 2016). The
proper means for raising the question of whether a
Reply raises new issues is not, however, a motion to
exclude evidence. Trial Practice Guide Update 15 16
(“a motion to exclude should [not] address
arguments or evidence that a party believes exceed[]
the proper scope of reply”). Instead, “[i]f a party
believes that a brief filed by the opposing party . . .
exceeds the proper scope of reply,” the party may
either “request authorization to file a motion to
In addition to the Exhibits discussed herein, Patent Owner
originally moved to exclude Exhibits 1007 and 1027, but it has
since withdrawn its motion as to these two Exhibits. Paper 22, 2.
15 Office Patent Trial Practice Guide, August 2018 Update, 83
Fed. Reg. 39,989 (Aug. 2018) (providing link to Trial Practice
Guide Update: https://go.usa.gov/xU7GP (“Trial Practice Guide
Update”)).
14

66a
strike” or “request authorization for further merits
briefing, such as a sur-reply.” Id. Here, Patent
Owner did not request such authorization. 16 16

Accordingly, Patent Owner’s motion to exclude
Petitioner’s Reply is improper.
Even if Patent Owner’s motion to exclude the
Reply were procedurally proper, we would deny it for
failure to comply with the rules governing motions to
exclude. A motion to exclude “must identify the
objections [it preserves] in the record and must
explain the objections.” 37 C.F.R. § 42.64(c). Here,
the motion to exclude the Reply does not identify or
explain any evidentiary objection previously made of
record. Paper 19, 2–3. Patent Owner argues that its
failure to identify evidentiary objections in the
record, or even to object at all on the record, should
be excused because 37 C.F.R. § 42.23(b), which
governs the proper scope of Petitioner’s Reply, “does
not include a timeframe for the argument.” Paper 22,
4. But Patent Owner asks for exclusion of the Reply
in a motion to exclude, which is governed by 37
C.F.R. § 42.64(c), and which, accordingly, requires
an identification of evidentiary objections in the
record. To the extent that Patent Owner invites us to
treat its request to exclude the Reply as something
other than a motion to exclude, such as a motion to
strike, Patent Owner never requested authorization
to file such a motion, which is a violation of 37 C.F.R.
§ 42.20(b) (“A motion will not be entered without
Board authorization.”). Accordingly, we decline the
invitation.
We note that Petitioner’s Reply was filed after the August
2018 effective date of the Trial Practice Guide Update. Reply 24
(showing filing date of September 10, 2018).
16

67a
Moreover, we are not persuaded that any portion
of Petitioner’s Reply presents arguments that are
beyond the proper scope of a Reply. Under 37 C.F.R.
§ 42.23(b), “[a] reply may only respond to arguments
raised in the corresponding . . . patent owner
response.” Here, Patent Owner identifies three
portions of the Reply that it contends violate this
rule. Paper 19, 2–3. We are persuaded, however, that
each of the identified portions responds to an
argument raised in the Patent Owner Response.
First, Patent Owner argues that section I.C of the
Reply, comprising “arguments regarding the oneyear bar of 35 U.S.C. § 315(b),” is beyond the scope of
a proper Reply. Id. at 2. As discussed above, the
parties dispute whether Petitioner has properly and
completely identified all real parties in interest, as
required by 35 U.S.C. § 312(a)(2). Patent Owner
raised this argument in its Response. PO Resp. 1–6.
In particular, Patent Owner argued in the Response
that, because of the failure to identify all real parties
in interest, “[t]he Petition . . . cannot be accorded a
filing date.” Id. at 1. In the Reply, Petitioner argues
that, if Patent Owner were to persuade us that the
identification of real parties in interest were
incomplete, dismissal of this inter partes review
would be a particularly harsh penalty, because any
new replacement petition would be barred by §
315(b). Reply 5–7. Accordingly, Petitioner argues
that we should permit correction of the existing
petition instead. Id. at 7–9. All of this is a direct
response to Patent Owner’s argument that the
Petition should be dismissed for failure to identify all
real parties in interest.
Second, Patent Owner argues that pages 9 and
10 of the Reply improperly discuss “new evidence

68a
regarding a determination of a person having
ordinary skill in the art.” Paper 19, 2. As stated
expressly on the complained-of pages, however,
Petitioner’s argument regarding the level of ordinary
skill in the art responds to the argument offered on
the same topic in the Patent Owner Response. Reply
9 (citing PO Resp. 11), 10 (citing PO Resp. 13); see
PO Resp. 11–14 (raising issue of level of ordinary
skill in the art).
Finally, Patent Owner argues that pages 11–15
and 18–20 of the Reply raise “new arguments and
evidence regarding changes or alterations to the prior
art relied upon in the Petition.” Paper 19, 3. But
nearly every paragraph on these pages begins with
the phrase “Patent Owner argues that,” before
summarizing an argument from the Patent Owner
Response and arguing that Patent Owner is incorrect.
Reply 11–15, 18–20. Among the few paragraphs that
do not take this form, nearly all of them cite the
Patent Owner Response and respond to its
arguments. Id. at 13 (citing PO Resp. 20), 18 (citing
PO Resp. 26), 19 (citing PO Resp. 26). It is difficult to
imagine an argument that more clearly responds to
the argument in the Patent Owner Response.
Thus, Patent Owner’s motion to exclude
Petitioner’s Reply is procedurally improper, and it
fails to comply with the rules governing motions to
exclude. Moreover, even considering the merits of
the motion, we are not persuaded that the Reply
exceeds the scope of a proper Reply. Accordingly, we
deny the motion.
2. Exhibits 1022–1025
Patent Owner argues that Exhibits 1022–1025
should be excluded because they support the

69a
argument in Petitioner’s Reply that is allegedly
beyond the scope of a proper Reply. Paper 19, 3–4.
As discussed above, a motion to exclude “must
identify the objections [it preserves] in the record
and must explain the objections.” 37 C.F.R. §
42.64(c). Here, the motion to exclude Exhibits 1022–
1025 does not identify or explain any evidentiary
objections previously made of record. Paper 19, 3–4.
Patent Owner argues that its failure to identify
evidentiary objections in the record, or even to object
at all on the record, should be excused because 37
C.F.R. § 42.23(b), which governs the proper scope of
Petitioner’s Reply and its supporting Exhibits, “does
not include a timeframe for the argument.” Paper 22,
4. But Patent Owner asks for exclusion of these
Exhibits in a motion to exclude, which is governed by
37 C.F.R. § 42.64(c), and which, accordingly, requires
an identification of evidentiary objections in the
record. Thus, we deny the motion to exclude Exhibits
1022–1025.
3. Exhibit 1028
Patent Owner moves to exclude eleven separate
portions 17 of Exhibit 1028, the transcript of a
deposition of David A. Bell, Ph.D., P.E. Paper 19, 4–
7. We discuss each portion separately below.
a. Pages 163–164
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 163, line 3, and page 164,
line 2. Paper 19, 4–5. “An objection to the
admissibility of deposition evidence must be made
Patent Owner does not present its explanation of these
portions of Exhibit 1028 “in order,” as required by 37 C.F.R. §
42.64(c).
17

70a
during the deposition.” 37 C.F.R. § 42.64(a). In the
portion of Exhibit 1028 that Patent Owner moves to
exclude, there is a single objection to a single
question. Ex. 1028, 163:18 (objecting to Ex. 1028,
163:14–17). Accordingly, we deny the motion to the
extent it seeks to exclude anything other than the
question at Ex. 1028, 163:14–17, or the response to
that question, at Ex. 1028, 163:20.
As to the portions of Exhibit 1028 that are the
subject of the objection on the deposition record,
Patent Owner argues that the question at issue
violates Federal Rules of Evidence 403 and 703.
Paper 19, 4–5. Specifically, Patent Owner argues
that the question “requires a speculative response
from the deponent.” Id.; see also Paper 22, 6 (arguing
that all hypothetical questions to Dr. Bell call for
“speculative responses based on alterations or
changes to the prior art not previously considered”
and, accordingly, “are not reliable evidence”). 18 We
are not persuaded that the question and answer at
issue should be excluded under either rule.
Rule 403 provides that we “may exclude relevant
evidence if its probative value is substantially
outweighed by a danger of one or more of the
following: unfair prejudice, confusing the issues, . . .
undue delay, wasting time, or needlessly presenting
cumulative evidence.” Fed. R. Evid. 403. 19 Patent
The argument in Patent Owner’s Reply in support of its
motion to exclude covers eleven pages. Paper 22. This far
exceeds the five pages allowed for a reply in support of a
motion. 37 C.F.R. § 42.24(c)(2). Notwithstanding Patent
Owner’s violation of this rule, we consider the entire Reply.
19 The portion of Federal Rule of Evidence 403 regarding
“misleading the jury” does not apply in inter partes review
proceedings. 37 C.F.R. § 42.62(b).
18

71a
Owner does not explain why a question that
“requires a speculative response from the deponent”
necessarily calls for a response that is at danger of
causing unfair prejudice, confusing the issues, undue
delay, wasting time, or presenting needlessly
cumulative evidence. Paper 19, 4–5. Considering
each of these issues separately, we are not
persuaded that it is possible for a single question
and answer at a deposition, particularly a single
question and answer that together take up only five
lines of a nearly 300-page deposition transcript, can
cause either undue delay or a waste of time. As to
unfair prejudice and confusion of the issues, the
question at issue simply asks Dr. Bell for his opinion
as to whether Cronenberg’s helical structure would
qualify as an arcuate channel if it were cut down to
turn through an included angle of less than 360
degrees, which goes to the heart of an important
issue in this proceeding: the scope of the claim term
“arcuate channel.” Ex. 1028, 163:14–20; see Ex.
1028, 161:21–164:2 (providing the context for the
question and the answer at issue). Further, Patent
Owner does not argue that the question and answer
here are cumulative of other evidence of record, or
that, if they are cumulative, they are needlessly so.
Thus, we deny the motion to exclude page 163, line
3, through page 164, line 2, of Exhibit 1028 under
Federal Rule of Evidence 403.
Rule 703 provides that “[a]n expert may base an
opinion on facts or data in the case that the expert
has been made aware of or personally observed.”
Fed. R. Evid. 703. Patent Owner does not explain
why the presentation of a hypothetical question to
an expert witness such as Dr. Bell necessarily
violates this rule. Paper 19, 4–5. In fact, hypothetical

72a
questions may be posed to expert witnesses within
the scope of rule 703. Fed. R. Evid. 703 advisory
committee’s note (“Facts or data upon which expert
opinions are based may, under the rule, be derived
from three possible sources,” one of which is
“presentation at trial,” including “the familiar
hypothetical question.”); see also Fed. R. Evid. 702
committee notes on rules—2000 amendment (“an
expert opinion need not be excluded simply because
it is based on hypothetical facts”). Accordingly, we
deny the motion to exclude page 163, line 3, through
page 164, line 2, of Exhibit 1028 under Federal Rule
of Evidence 703.
b. Pages 43–45
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 43, line 24, and page 45,
line 3, under Federal Rules of Evidence 403 and 703.
Paper 19, 5. “An objection to the admissibility of
deposition evidence must be made during the
deposition.” 37 C.F.R. § 42.64(a). In the portion of
Exhibit 1028 that Patent Owner moves to exclude,
there are two objections, both to the effect that the
questions asked call for speculation. Ex. 1028, 44:3–
4, 44:21–22. Both of the objected-to questions seek
the expert’s opinion regarding whether a helical
structure that turns through more than 360 degrees
would qualify as an arcuate channel. Id. at 43:24–
44:2, 44:14–20. As discussed above, this sort of
hypothetical question is not objectionable under
rules 403 and 703 when asked of an expert witness,
such as Dr. Bell. Accordingly, we deny the motion to
exclude the portion of Exhibit 1028 between page 43,
line 24, and page 45, line 3, under Federal Rules of
Evidence 403 and 703.

73a
c. Page 223
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 223, line 13, and page
223, line 16, “as calling for a legal conclusion.” Paper
19, 5. “An objection to the admissibility of deposition
evidence must be made during the deposition.” 37
C.F.R. § 42.64(a). There is no objection in the portion
of Exhibit 1028 that Patent Owner moves to
exclude. 20 Accordingly, we deny the motion to
exclude the portion of Exhibit 1028 between page
223, line 13, and page 223, line 16.
d. Page 192
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 192, line 10, and page
192, line 23, under Federal Rules of Evidence 403
and 703. Paper 19, 5. “An objection to the
admissibility of deposition evidence must be made
during the deposition.” 37 C.F.R. § 42.64(a). In the
portion of Exhibit 1028 that Patent Owner moves to
exclude, there is a single objection, to the effect that
the question asked calls for speculation, to a single
question. Ex. 1028, 192:21. Accordingly, we deny the
motion to the extent it seeks to exclude anything
other than the question at Ex. 1028, 192:18–20, or
the response to that question, at Ex. 1028, 192:22–
23. The objected-to question seeks the expert’s
opinion regarding whether essential oil placed in the
reservoir of a humidifier would be “entrained and
diffused into” the surrounding environment. Id. at
192:18–20. As discussed above, this sort of
hypothetical question is not objectionable under
Even in the motion to exclude itself, Patent Owner does not
identify any Federal Rule of Evidence violated by the question
and answer at issue. Paper 19, 5.
20

74a
rules 403 and 703 when asked of an expert witness,
such as Dr. Bell. Accordingly, we deny the motion to
exclude the portion of Exhibit 1028 between page
192, line 10, and page 192, line 23.
e. Pages 193–194
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 193, line 4, and page 194,
line 3, under Federal Rules of Evidence 403 and 703.
Paper 19, 5–6. “An objection to the admissibility of
deposition evidence must be made during the
deposition.” 37 C.F.R. § 42.64(a). In the portion of
Exhibit 1028 that Patent Owner moves to exclude,
there is a single objection, to the effect that the
question asked calls for speculation, to a single
question. Ex. 1028, 192:21. Accordingly, we deny
the motion to the extent it seeks to exclude anything
other than the question at Ex. 1028, 193:14–18, or
the response to that question, at Ex. 1028, 193:20–
194:3. The objected-to question seeks the expert’s
opinion regarding whether placing “Mentholatum
material” in the reservoir of a humidifier is an
intended use of such a device. Id. at 193:14–18. This
is a question that might invite some degree of
speculation, but Dr. Bell does not speculate in his
answer, responding instead that humidifiers exist
that operate in a related, but different, way. Id. at
193:23–194:3 (“Vicks has humidifiers that can be
used for that purpose,” but the oil is placed in a
separate “reservoir on top, right next to the
humidifier jet,” rather than in the main water
reservoir.). Accordingly, we deny the motion to
exclude the portion of Exhibit 1028 between page
193, line 4, and page 194, line 3.

75a
f. Page 182
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 182, line 12, and page
182, line 21, under Federal Rules of Evidence 403
and 703. Paper 19, 6. “An objection to the
admissibility of deposition evidence must be made
during the deposition.” 37 C.F.R. § 42.64(a). The
objected-to question seeks the expert’s opinion
regarding whether the helical structure of
Cronenberg would constitute “an arcuate channel
through a wall” if it were cut down “to have less than
a single rotation from beginning to finish” and if a
wall were “pack[ed] around it.” Ex. 1028, 182:12–15.
As discussed above, this sort of hypothetical question
is not objectionable under rules 403 and 703 when
asked of an expert witness, such as Dr. Bell.
Accordingly, we deny the motion to exclude the
portion of Exhibit 1028 between page 182, line 12,
and page 182, line 21, under Federal Rules of
Evidence 403 and 703.
g. Pages 62–64
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 62, line 2, and page 64,
line 5, “as calling for a legal conclusion.” Paper 19, 6.
“An objection to the admissibility of deposition
evidence must be made during the deposition.” 37
C.F.R. § 42.64(a). In the portion of Exhibit 1028 that
Patent Owner moves to exclude, there are three
objections, to three questions, each to the effect that
the question asked calls for a legal conclusion. Ex.
1028, 62:13–14, 62:19, 64:2–3. Accordingly, we deny
the motion to the extent it seeks to exclude anything
other than the questions at Ex. 1028, 62:2–12,

76a
62:16–18, and 63:24–64:1, or the responses to those
questions, at Ex. 1028, 62:15, 62:20–22, and 64:4–5.
The objected-to questions all seek the expert’s
opinion regarding the differences between claim 1 of
the ’130 patent and the disclosure of Sevy. Id. at
62:2–12, 62:16–18, 63:24–64:1. As discussed above,
the key issues in this case have to do with whether
the disclosure of Sevy, when combined with the
disclosure of Cronenberg, Giroux, Kato, or Stroia,
renders the claims of the ’130 patent obvious. The
question of obviousness is resolved on the basis of
underlying factual determinations including (1) the
scope and content of the prior art, (2) any differences
between the claimed subject matter and the prior
art, (3) the level of skill in the art, and (4) where in
evidence,
so-called
secondary
considerations.
Graham v. John Deere Co., 383 U.S. 1, 17-18 (1966);
see also KSR, 550 U.S. at 407 (“While the sequence
of these questions might be reordered in any
particular case, the [Graham] factors continue to
define the inquiry that controls.”). Thus, the issue of
the differences between the claims of the ’130 patent
and the disclosure of Sevy is a factual matter, not a
legal one, so Patent Owner’s objection to inquiries
into this matter as calling for a legal conclusion is
not well-founded. Even to the extent that these
questions probe Dr. Bell’s legal conclusion on the
question of the obviousness of the challenged claims,
at the time of the deposition, Dr. Bell had already
provided direct testimony that those claims would
have been non-obvious. Ex. 2024 ¶¶ 91–158. It would
be improper to prohibit Petitioner from probing Dr.
Bell’s legal opinions but to allow the introduction of
those opinions by Patent Owner. Accordingly, we

77a
deny the motion to exclude the portion of Exhibit
1028 between page 62, line 2, and page 64, line 5.
h. Pages 185–186
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 185, line 7, and page 186,
line 5, “as calling for a legal conclusion.” Paper 19, 6.
“An objection to the admissibility of deposition
evidence must be made during the deposition.” 37
C.F.R. § 42.64(a). In the portion of Exhibit 1028 that
Patent Owner moves to exclude, there is a single
objection to a single question, to the effect that the
question asked calls for a legal conclusion. Ex. 1028,
185:24. Accordingly, we deny the motion to the
extent it seeks to exclude anything other than the
question at Ex. 1028, 185:18–23, or the response to
that question, at Ex. 1028, 185:25–186:5.
The objected-to question seeks the expert’s
opinion regarding the relative breadth of claim 1 of
the ’130 patent and claim 40 of the ’542 application.
Id. at 185:18–23. Patent Owner argues that this
opinion relates to claim construction, “a legal issue,”
making it inappropriate for expert testimony. Paper
19, 6; Paper 22, 10. But Dr. Bell testified as to the
construction of claim terms in his direct testimony.
Ex. 2024 ¶¶ 12–13, 82, 98, 101–158. It would be
improper to prohibit Petitioner from probing Dr.
Bell’s legal opinions but to allow the introduction of
those opinions by Patent Owner. Accordingly, we
deny the motion to exclude the portion of Exhibit
1028 between page 185, line 7, and page 186, line 5.
i. Pages 237–238
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 237, line 12, and page

78a
238, line 10, under Federal Rules of Evidence 403
and 703. Paper 19, 6–7. “An objection to the
admissibility of deposition evidence must be made
during the deposition.” 37 C.F.R. § 42.64(a). The
objected-to question seeks the expert’s opinion
regarding whether a person of ordinary skill in the
art would have incorporated a helical structure into
Sevy’s separator plate orifice or into some other part
of Sevy. Ex. 1028, 237:12–19. As discussed above,
this sort of hypothetical question is not objectionable
under rules 403 and 703 when asked of an expert
witness, such as Dr. Bell. Accordingly, we deny the
motion to exclude the portion of Exhibit 1028
between page 237, line 12, and page 238, line 10,
under Federal Rules of Evidence 403 and 703.
j. Page 249
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 249, line 9, and page 249,
line 25, under Federal Rules of Evidence 403 and
703. Paper 19, 7. “An objection to the admissibility of
deposition evidence must be made during the
deposition.” 37 C.F.R. § 42.64(a).
There is no
objection in the portion of Exhibit 1028 that Patent
Owner moves to exclude. Accordingly, we deny the
motion to exclude the portion of Exhibit 1028
between page 249, line 9, and page 249, line 25.
k. Page 153
Patent Owner moves to exclude the portion of
Exhibit 1028 between page 153, line 7, and page 153,
line 18, “as calling for a legal conclusion.” Paper 19,
7. “An objection to the admissibility of deposition
evidence must be made during the deposition.” 37
C.F.R. § 42.64(a). There is no objection in the portion
of Exhibit 1028 that Patent Owner moves to

79a
exclude. 21 Accordingly, we deny the motion to
exclude the portion of Exhibit 1028 between page
153, line 7, and page 153, line 18.

4. Conclusion with Respect to Motion to
Exclude

For the reasons discussed above, we deny Patent
Owner’s motion to exclude (1) Petitioner’s Reply, (2)
the entirety of Exhibits 1022–1025, and
(3) eleven separate portions of Exhibit 1028.
CONCLUSION
Upon consideration of the Petition, Response,
Reply, the briefing on Patent Owner’s motion to
exclude evidence, and the evidence before us, we
determine that Petitioner has proven by a
preponderance of the evidence that claims 1, 3, and
17 would have been obvious over either the
combination of Sevy and Cronenberg or the
combination of Sevy and Giroux. We determine that
Petitioner has not proven by a preponderance of the
evidence that claims 1, 3, and 17 would have been
obvious over either the combination of Sevy and
Kato or the combination of Sevy and Stroia. We also
determine that Petitioner’s identification of real
parties in interest was not incomplete either for
failure to identify Puzhen Life HK or for failure to
identify doTERRA. Finally, we deny Patent Owner’s
motion to exclude Petitioner’s Reply and several
evidentiary exhibits.

Even in the motion to exclude itself, Patent Owner does not
identify any Federal Rule of Evidence violated by the question
and answer at issue. Paper 19, 5.
21

80a
ORDER
It is hereby
ORDERED that Petitioner has proven by a
preponderance of the evidence that claims 1, 3, and
17 of U.S. Patent No. 9,415,130 B2 are unpatentable;
FURTHER ORDERED that Petitioner has
satisfied the requirement of 35 U.S.C. § 312(a)(2)
that it identify all real parties in interest;
FURTHER ORDERED that Patent Owner’s
motion to exclude is denied;
FURTHER ORDERED that, pursuant to 35
U.S.C. § 318(b), upon expiration of the time for
appeal of this decision, or the termination of any
such appeal, a certificate shall issue canceling claims
1, 3, and 17 of U.S. Patent No. 9,415,130 B2; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to the proceeding
seeking judicial review of the decision must comply
with the notice and service requirements of 37
C.F.R. § 90.2.
PETITIONER:
Mark A. Miller
Bradley B. Jensen
DORSEY & WHITNEY LLP
miller.mark@dorsey.com
jensen.bradley@dorsey.com
PATENT OWNER:
Gordon K. Hill
PATE BAIRD, PLLC
ghill@patebaird.com

81a
[ENTERED: JULY 13, 2020]
NOTE: This order is nonprecedential.
___________
United States Court of Appeals
for the Federal Circuit
___________

ESIP SERIES 2, LLC,
Appellant
v.
PUZHEN LIFE USA, LLC,
Appellee
___________

2019-1659
___________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017- 02197.
___________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC

___________

Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
PER CURIAM.
ORDER
Appellant ESIP Series 2, LLC filed a combined
petition for panel rehearing and rehearing en banc.
The petition was referred to the panel that heard the

82a
appeal, and there- after the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof.
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on July 20, 2020.
FOR THE COURT
July 13, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

83a
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
1. The United States Constitution provides in
relevant part as follows:
Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public
danger; nor shall any person be subject for the same
offense to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.
2. Title 5 of the United States Code provides in
relevant part as follows:
§ 706. Scope of review
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional
and statutory provisions, and determine the
meaning or applicability of the terms of an agency
action. The reviewing court shall –
(1) compel agency action unlawfully withheld or
unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be –

84a
(A) arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with
law;
(B) contrary to constitutional right, power,
privilege, or immunity;
(C) in excess of statutory jurisdiction,
authority, or limitations, or short of statutory
right;
(D) without observance of procedure required
by law;
(E) unsupported by substantial evidence in a
case subject to sections 556 and 557 of this title
or otherwise reviewed on the record of an agency
hearing provided by statute; or
(F) unwarranted by the facts to the extent that
the facts are subject to trial de novo by the
reviewing court.
In making the foregoing determinations, the
court shall review the whole record or those parts of
it cited by a party, and due account shall be taken of
the rule of prejudicial error.
3. Title 35 of the United States Code provides in
relevant part as follows:
§ 101. Inventions patentable
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the
conditions and requirements of this title.

85a
§ 103.
Conditions for patentability; nonobvious subject matter
A patent for a claimed invention may not be
obtained, notwithstanding that the claimed
invention is not identically disclosed as set forth in
section 102, if the differences between the claimed
invention and the prior art are such that the claimed
invention as a whole would have been obvious before
the effective filing date of the claimed invention to a
person having ordinary skill in the art to which the
claimed invention pertains. Patentability shall not
be negated by the manner in which the invention
was made.
§ 261. Ownership; assignment
Subject to the provisions of this title, patents
shall have the attributes of personal property. The
Patent and Trademark Office shall maintain a
register of interests in patents and applications for
patents and shall record any document related
thereto upon request, and may require a fee therefor.
Applications for patent, patents, or any interest
therein, shall be assignable in law by an instrument
in writing. The applicant, patentee, or his assigns or
legal representatives may in like manner grant and
convey an exclusive right under his application for
patent, or patents, to the whole or any specified part
of the United States.
A certificate of acknowledgment under the hand
and official seal of a person authorized to administer
oaths within the United States, or, in a foreign
country, of a diplomatic or consular officer of the
United States or an officer authorized to administer
oaths whose authority is proved by a certificate of a

86a
diplomatic or consular officer of the United States, or
apostille of an official designated by a foreign
country which, by treaty or convention, accords like
effect to apostilles of designated officials in the
United States, shall be prima facie evidence of the
execution of an assignment, grant or conveyance of a
patent or application for patent.
An interest that constitutes an assignment, grant
or conveyance shall be void as against any
subsequent purchaser or mortgagee for a valuable
consideration, without notice, unless it is recorded in
the Patent and Trademark Office within three
months from its date or prior to the date of such
subsequent purchase or mortgage.
§ 271. Infringement of patent
(a) Except as otherwise provided in this title,
whoever without authority makes, uses, offers to
sell, or sells any patented invention, within the
United States or imports into the United States any
patented invention during the term of the patent
therefor, infringes the patent.
§ 311. Inter partes review
(a) IN GENERAL. – Subject to the provisions of
this chapter, a person who is not the owner of a
patent may file with the Office a petition to institute
an inter partes review of the patent. The Director
shall establish, by regulation, fees to be paid by the
person requesting the review, in such amounts as
the Director determines to be reasonable,
considering the aggregate costs of the review.
(b) SCOPE. – A petitioner in an inter partes
review may request to cancel as unpatentable 1 or
more claims of a patent only on a ground that could

87a
be raised under section 102 or 103 and only on the
basis of prior art consisting of patents or printed
publications.
(c) FILING DEADLINE. – A petition for inter partes
review shall be filed after the later of either –
(1) the date that is 9 months after the grant of
a patent; or
(2) if a post-grant review is instituted under
chapter 32, the date of the termination of such
post-grant review.
§ 312. Petitions
(a) REQUIREMENTS OF PETITION. – A petition filed
under section 311 may be considered only if –
(1) the petition is accompanied by payment of
the fee established by the Director under section
311;
(2) the petition identifies all real parties in
interest;
(3) the petition identifies, in writing and with
particularity, each claim challenged, the grounds
on which the challenge to each claim is based,
and the evidence that supports the grounds for
the challenge to each claim, including –
(A)
copies of patents and printed
publications that the petitioner relies upon in
support of the petition; and
(B)
affidavits or declarations of
supporting evidence and opinions, if the
petitioner relies on expert opinions;

88a
(4)
the petition provides such other
information as the Director may require by
regulation; and
(5) the petitioner provides copies of any of
the documents required under paragraphs (2),
(3), and (4) to the patent owner or, if applicable,
the designated representative of the patent
owner.
(b) PUBLIC AVAILABILITY. – As soon as practicable
after the receipt of a petition under section 311, the
Director shall make the petition available to the
public.
§ 313. Preliminary response to petition
If an inter partes review petition is filed under
section 311, the patent owner shall have the right to
file a preliminary response to the petition, within a
time period set by the Director, that sets forth
reasons why no inter partes review should be
instituted based upon the failure of the petition to
meet any requirement of this chapter.
§ 314. Institution of inter partes review
(a)
THRESHOLD. – The Director may not
authorize an inter partes review to be instituted
unless the Director determines that the information
presented in the petition filed under section 311 and
any response filed under section 313 shows that
there is a reasonable likelihood that the petitioner
would prevail with respect to at least 1 of the claims
challenged in the petition.
(b) TIMING. – The Director shall determine
whether to institute an inter partes review under
this chapter pursuant to a petition filed under
section 311 within 3 months after –

89a
(1) receiving a preliminary response to the
petition under section 313; or
(2) if no such preliminary response is filed,
the last date on which such response may be
filed.
(c) NOTICE. – The Director shall notify the
petitioner and patent owner, in writing, of the
Director’s determination under subsection (a), and
shall make such notice available to the public as
soon as is practicable. Such notice shall include the
date on which the review shall commence.
(d) NO APPEAL. – The determination by the
Director whether to institute an inter partes review
under this section shall be final and nonappealable.
§ 315. Relation to other proceedings or actions
(a) INFRINGER’S CIVIL ACTION. –
(1) INTER PARTES REVIEW BARRED BY CIVIL
ACTION. – An inter partes review may not be
instituted if, before the date on which the petition
for such a review is filed, the petitioner or real
party in interest filed a civil action challenging
the validity of a claim of the patent.
(2) STAY OF CIVIL ACTION. – If the petitioner
or real party in interest files a civil action
challenging the validity of a claim of the patent
on or after the date on which the petitioner files a
petition for inter partes review of the patent, that
civil action shall be automatically stayed until
either –
(A) the patent owner moves the court
to lift the stay;

90a
(B) the patent owner files a civil action
or counterclaim alleging that the petitioner
or real party in interest has infringed the
patent; or
(C) the petitioner or real party in
interest moves the court to dismiss the
civil action.
(3) TREATMENT OF COUNTERCLAIM. – A
counterclaim challenging the validity of a claim of
a patent does not constitute a civil action
challenging the validity of a claim of a patent for
purposes of this subsection.
(b) PATENT OWNER’S ACTION. – An inter partes
review may not be instituted if the petition
requesting the proceeding is filed more than 1 year
after the date on which the petitioner, real party in
interest, or privy of the petitioner is served with a
complaint alleging infringement of the patent. The
time limitation set forth in the preceding sentence
shall not apply to a request for joinder under
subsection (c).
(c) JOINDER. – If the Director institutes an inter
partes review, the Director, in his or her discretion,
may join as a party to that inter partes review any
person who properly files a petition under section
311 that the Director, after receiving a preliminary
response under section 313 or the expiration of the
time for filing such a response, determines warrants
the institution of an inter partes review under
section 314.
(d) MULTIPLE PROCEEDINGS. – Notwithstanding
sections 135(a), 251, and 252, and chapter 30, during
the pendency of an inter partes review, if another

91a
proceeding or matter involving the patent is before
the Office, the Director may determine the manner
in which the inter partes review or other proceeding
or matter may proceed, including providing for a
stay, transfer, consolidation, or termination of any
such matter or proceeding.
(e) ESTOPPEL. –
(1) PROCEEDINGS BEFORE THE OFFICE. –
The petitioner in an inter partes review of a claim
in a patent under this chapter that results in a
final written decision under section 318(a), or the
real party in interest or privy of the petitioner,
may not request or maintain a proceeding before
the Office with respect to that claim on any
ground that the petitioner raised or reasonably
could have raised during that inter partes review.
(2) Civil actions and other proceedings. –
The petitioner in an inter partes review of a
claim in a patent under this chapter that
results in a final written decision under
section 318(a), or the real party in interest or
privy of the petitioner, may not assert either
in a civil action arising in whole or in part
under section 1338 of title 28 or in a
proceeding before the International Trade
Commission under section 337 of the Tariff
Act of 1930 that the claim is invalid on any
ground that the petitioner raised or
reasonably could have raised during that inter
partes review.
§ 318. Decision of the Board
(a) FINAL WRITTEN DECISION. – In an inter partes
review is instituted and not dismissed under this

92a
chapter, the Patent Trial and Appeal Board shall
issue a final written decision with respect to the
patentability of any patent claim challenged by the
petitioner and any new claim added under section
316(d).
(b) CERTIFICATE. – If the Patent Trial and Appeal
Board issues a final written decision under
subsection (a) and the time for appeal has expired or
any appeal has terminated, the Director shall issue
and publish a certificate canceling any claim of the
patent finally determined to be unpatentable,
confirming any claim of the patent determined to be
patentable, and incorporating in the patent by
operation of the certificate any new and amended
claim determined to be patentable.
(c)
INTERVENING RIGHTS. – Any proposed
amended or new claim determined to be patentable
and incorporated into a patent following an inter
partes review under this chapter shall have the
same effect as that specified in section 252 for
reissued patents on the right of any person who
made, purchased, or used within the United States,
or imported into the United States, anything
patented by such proposed amended or new claim, or
who made substantial preparation therefor, before
the issuance of a certificate under subsection (b).
(d) DATA ON LENGTH OF REVIEW. – The Office
shall make available to the public data describing
the length of time between the institution of, and the
issuance of a final written decision under subsection
(a) for, each inter partes review.

93a
§ 319. Appeal
A party dissatisfied with the final written
decision of the Patent Trial and Appeal Board under
section 318(a) may appeal the decision pursuant to
sections 141 through 144. Any party to the inter
partes review shall have the right to be a party to
the appeal.

